<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 113-515, Part 1]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 113-515, Pt. 1

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

        JANUARY 23, FEBRUARY 13, FEBRUARY 27, AND MARCH 19, 2013

                               ----------                              

                           Serial No. J-113-1

                               ----------                              

                                 PART 1

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         







         
         
         
         
         

             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS
             
             
             
             
             
             
             
             






                                                 S. Hrg. 113-515, Pt. 1
 
             CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS

=======================================================================

                                HEARINGS

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

        JANUARY 23, FEBRUARY 13, FEBRUARY 27, AND MARCH 19, 2013

                               __________

                           Serial No. J-113-1

                               __________

                                 PART 1

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       







                          U.S. GOVERNMENT PUBLISHING OFFICE
     91-101 PDF                  WASHINGTON : 2013               
___________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001  
         
         
         
         
         
         

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                            C O N T E N T S

                      WEDNESDAY, JANUARY 23, 2013

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coons, Hon. Christopher A., a U.S. Senator from the State of 
  Delaware.......................................................     8

                               PRESENTERS

Udall, Hon. Mark, a U.S. Senator from the State of Colorado 
  presenting Raymond P. Moore, Nominee to be District Judge for 
  the District of Colorado.......................................     2
Bennett, Hon. Michael, a U.S. Senator from the State of Colorado 
  presenting Raymond P. Moore, Nominee to be District Judge for 
  the District of Colorado.......................................     3
Gillibrand, Hon. Kirsten E., a U.S. Senator from the State of New 
  York presenting Nelson Stephen Roman, Nominee to be District 
  Judge for the Southern District of New York, Analisa Torres, 
  Nominee to be District Judge for the Southern District of New 
  York, and Claire R. Kelly, Nominee to be a Judge of the Court 
  of International Trade.........................................     5
Schatz, Hon. Brian, a U.S. Senator from the State of Hawaii 
  presenting Derrick Kahala Watson, Nominee to be District Judge 
  for the District of Hawaii.....................................     7
Hirono, Hon. Mazie K., a U.S. Senator from the State of Hawaii 
  presenting Derrick Kahala Watson, Nominee to be District Judge 
  for the District of Hawaii.....................................     8

                       STATEMENT OF THE NOMINEES

Roman, Nelson Stephen, Nominee to be District Judge for the 
  Southern District of New York..................................     9
    Update Letter to Questionnaire...............................    76
    Questionnaire................................................    11
Moore, Raymond P., Nominee to be District Judge for the District 
  of Colorado....................................................    78
    Update Letter to Questionnaire...............................   108
    Questionnaire................................................    79
Torres, Analisa, Nominee to be District Judge for the Southern 
  District of New York...........................................   116
    Update Letter to Questionnaire...............................   169
    Questionnaire................................................   117
Watson, Derrick Kahala, Nominee to be District Judge for the 
  District of Hawaii.............................................   184
    Update Letter to Questionnaire...............................   218
    Questionnaire................................................   185
Kelly, Claire R., Nominee to be a Judge of the Court of 
  International Trade............................................   228
    Update Letter to Questionnaire...............................   288
    Questionnaire................................................   229

                               QUESTIONS

Questions for all nominees submitted by Senator Klobuchar........   313
Questions for Nelson Stephen Roman submitted by Senator Grassley.   314
Questions for Raymond P. Moore submitted by Senator Grassley.....   316
Questions for Analisa Torres submitted by Senator Grassley.......   318
Questions for Derrick Kahala Watson submitted by Senator Grassley   320
Questions for Claire R. Kelly submitted by Senator Grassley......   322
Questions for all nominees submitted by Senator Cruz.............   324
Questions for Nelson Stephen Roman submitted by Senator Flake....   325
Questions for Raymond P. Moore submitted by Senator Flake........   326
Questions for Analisa Torres submitted by Senator Flake..........   327
Questions for Derrick Kahala Watson submitted by Senator Flake...   328

                                ANSWERS

Responses of Claire R. Kelly to questions submitted by Senators 
  Grassley and Klobuchar.........................................   329
Responses of Derrick Kahala Watson to questions submitted by 
  Senators Grassley, Cruz, Flake and Klobuchar...................   334
Responses of Analisa Torres to questions submitted by Senators 
  Grassley, Cruz, Flake and Klobuchar............................   343
Responses of Nelson Stephen Roman to questions submitted by 
  Senators Grassley, Cruz, Flake and Klobuchar...................   354
Responses of Raymond P. Moore to questions submitted by Senators 
  Grassley, Cruz, Flake and Klobuchar............................   365

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Claire R. Kelly, November 15, 2012, letter.................   376
Customs & International Trade Bar Association (citba.org), James 
  R. Cannon, Jr., President, and Elizabeth J. Drake, Chairman, 
  Judicial Selection Committee, New York, New York, March 20, 
  2013, letter...................................................
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Raymond P. Moore, November 15, 2012, letter................   388
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Nelson S. Roman, September 21, 2012, letter................   390
Quirk, Dennis W., President, New York State Court Officers 
  Association, New York, New York, September 21, 2012, letter....   392
Vance, Cyrus R., Jr., District Attorney, New York, New York, 
  September 25, 2012, letter.....................................   393
Velazquez, Elena Goldberg, Esq., President, Puerto Rican Bar 
  Association, New York, New York, September 27, 2012, letter....   395
Kaye, Judith S., New York, New York, September 27, 2012, letter..   397
Marinaccio, Michael A., President, Bronx County Bar Association, 
  Bronx, New York, October 1, 2012, letter.......................   398
Cusanelli, Thomas W., Esq., Deer Park, New York, October 17, 
  2012, letter...................................................   400
Friedman, Robert S., Sheppard Mullin Richter & Hampton LLP, New 
  York, New York, October 23, 2012...............................   402
Robles, Richard R., President, Puerto Rican Bar Association of 
  Florida, Miami, Florida, November 9, 2012, letter..............   404
Perez-Vega, Bianka, President, Dominican Bar Association, Inc., 
  New York, New York, November 21, 2012, letter..................   405
Abbene, Vincent, Retired New York Police Department Captain, New 
  York, New York, January 15, 2013, letter.......................   407
Castro-Blanco, James F., Esq., Yonkers, New York, January 3, 
  2013, letter...................................................   408
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Analisa N. Torres, November 15, 2012, letter...............   410
Hispanic National Bar Association (HNBA), Peter M. Reyes, Jr., 
  National President, and Robert Raben, Chair, Washington, DC, 
  February 13, 2013, letter......................................   412
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Derrick K. Watson, November 15, 2012, letter...............   414
National Asian Pacific American Bar Association (NAPABA), Wendy 
  C. Shiba, President, and Tina R. Matsuoka, Executive Director, 
  Washington, DC, January 22, 2013, letter.......................   416
Fox, Hugh, Jr., Yonkers, New York, January 15, 2013..............   418
                              ----------                              

                      WEDNESDAY, FEBRUARY 13, 2013
                    STATEMENTS OF COMMITTEE MEMBERS

Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii......   420
Lee, Hon. Michael S., a U.S. Senator from the State of Utah......   428

                               PRESENTERS

Wyden, Hon. Ron, a U.S. Senator from the State of Oregon 
  presenting Michael J. McShane, Nominee to be U.S. District 
  Judge for the District of Oregon...............................   421
    prepared statement...........................................   780
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon 
  presenting Michael J. McShane, Nominee to be U.S. District 
  Judge for the District of Oregon...............................   422
Casey, Hon. Robert, Jr., a U.S. Senator from the State of 
  Pennsylvania presenting Nitza I. Quinnones Alejandro, Nominee 
  to be U.S. District Judge for the Eastern District of 
  Pennsylvania; Luis Felipe Restrepo, Nominee to be U.S. District 
  Judge for the Eastern District of Pennsylvania, and Jeffrey L. 
  Schmehl, Nominee to be U.S. District Judge for the Eastern 
  District of Pennsylvania.......................................   422
Toomey, Hon. Patrick, a U.S. Senator from the State of 
  Pennsylvania presenting Nitza I. Quinnones Alejandro, Nominee 
  to be U.S. District Judge for the Eastern District of 
  Pennsylvania; Luis Felipe Restrepo, Nominee to be U.S. District 
  Judge for the Eastern District of Pennsylvania, and Jeffrey L. 
  Schmehl, Nominee to be U.S. District Judge for the Eastern 
  District of Pennsylvania.......................................   424
Udall, Hon. Tom, a U.S. Senator from the State of New Mexico 
  presenting Kenneth John Gonzales, Nominee to be U.S. District 
  Judge for the District of New Mexico...........................   425
Heinrich, Hon. Martin, a U.S. Senator from the State of New 
  Mexico presenting Kenneth John Gonzales, Nominee to be U.S. 
  District Judge for the District of New Mexico..................   426

                       STATEMENT OF THE NOMINEES

Gonzales, Kenneth John, Nominee to be U.S. District Judge for the 
  District of New Mexico.........................................   429
McShane, Michael J., Nominee to be U.S. District Judge for the 
  District of Oregon.............................................   488
Alejandro, Nitza I. Quinnones, Nominee to be U.S. District Judge 
  for the Eastern District of Pennsylvania.......................   527
Restrepo, Luis Felipe, Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   587
Schmehl, Jeffrey L., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   650

                               QUESTIONS

Questions for all nominees submitted by Senator Cruz.............   716
Questions for Kenneth John Gonzales submitted by Senator Grassley   717
Questions for Michael J. McShane submitted by Senator Grassley...   720
Questions for Nitza I. Quinnones Alejandro submitted by Senator 
  Grassley.......................................................   722
Questions for Luis Felipe Restrepo submitted by Senator Grassley.   724
Questions for Jeffrey L. Schmehl submitted by Senator Grassley...   727

                                ANSWERS

Responses of Kenneth John Gonzales to questions submitted by 
  Senators Grassley and Cruz.....................................   729
Responses of Michael M. McShane to questions submitted by 
  Senators Grassley and Cruz.....................................   738
Responses of Nitza I. Quinnones Alejandro to questions submitted 
  by Senators Grassley and Cruz..................................   744
Responses of Luis Felipe Restrepo to questions submitted by 
  Senators Grassley and Cruz.....................................   752
Responses of Jeffrey L. Schmehl to questions submitted by 
  Senators Grassley and Cruz.....................................   761

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Kenneth J. Gonzales, November 15, 2012, letter.............   768
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Michael J. McShane, September 20, 2012, letter.............   770
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Nitza I. Quinnones Alejandro, November 27, 2012, letter....   772
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Luis Felipe Restrepo, November 27, 2012, letter............   774
National Employment Lawyers Association (NELA), Patricia A. 
  Barasch, President: Luis Felipe Restrepo, February 11, 2013, 
  letter.........................................................   776
American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Jeffrey L. Schmehl, November 27, 2012, letter..............   778
                              ----------                              

                           FEBRUARY 27, 2013
                    STATEMENTS OF COMMITTEE MEMBERS

Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..   784
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   786
    prepared statement...........................................   823

                               PRESENTERS

Harkin, Hon. Tom, a U.S. Senator from the State of Iowa 
  presenting Jane Kelly, Nominee to be Circuit Judge for the 
  Eighth Circuit.................................................   784

                       STATEMENT OF THE NOMINEES

Kelly, Jane, of Iowa, Nominee to be Circuit Judge for the Eighth 
  Circuit........................................................   788
    Questionnaire................................................   789

                               QUESTIONS

Questions for Jane Kelly submitted by Senator Grassley...........   833

                                ANSWERS

Responses of Jane Kelly to questions submitted by Senator 
  Grassley.......................................................   835

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Jane Kelly, January 31, 2013, letter.......................   839
                              ----------                              

                             MARCH 19, 2013
                    STATEMENTS OF COMMITTEE MEMBERS

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................   841
Lee, Hon. Michael S., a U.S. Senator from the State of Utah......   844
Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   925

                               PRESENTERS

Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming 
  presenting Gregory Alan Phillips, Nominee to be Circuit Judge 
  for the Tenth Circuit..........................................   841
Barrasso, Hon. John, a U.S. Senator from the State of Wyoming 
  presenting Gregory Alan Phillips, Nominee to be Circuit Judge 
  for the Tenth Circuit..........................................   843
Chambliss, Hon. Saxby, and Isakson, Hon. Johnny, U.S. Senators 
  from the State of Georgia presenting Karol Virginia Mason, 
  Nominee to be an Assistant Attorney General, prepared statement   991

                       STATEMENT OF THE NOMINEES

Phillips, Gregory Alan, Nominee to be Circuit Judge for the Tenth 
  Circuit........................................................   845
    Questionnaire................................................   846
Mason, Karol Virginia, Nominee to be an Assistant Attorney 
  General........................................................   893
    Questionnaire................................................   894

                               QUESTIONS

Questions for Gregory Phillips submitted by Senator Cruz.........   926
Questions for Karol Virginia Mason submitted by Senator Grassley.   927
Questions for Gregory Phillips submitted by Senator Grassley.....   930
Questions for Karol Virginia Mason submitted by Senator Klobuchar   934
Questions for Gregory Phillips submitted by Senator Klobuchar....   925

                                ANSWERS

Responses of Gregory Alan Phillips to questions submitted by 
  Senator Cruz...................................................   936
Responses of Gregory Alan Phillips to questions submitted by 
  Senator Grassley...............................................   939
Responses of Gregory Alan Phillips to questions submitted by 
  Senator Klobuchar..............................................   949
Responses of Karol Virginia Mason to questions submitted by 
  Senator Klobuchar..............................................   950
Responses of Karol Virginia Mason to questions submitted by 
  Senator Grassley...............................................   951

                       SUBMISSIONS FOR THE RECORD

American Bar Association, Judy Perry Martinez, Chair, Washington, 
  DC: Gregory A. Phillips, January 31, 2013, letter..............   958
Letter supporting Gregory Phillips to Senators Reid, McConnell, 
  Leahy, and Grassley from the State Attorneys General of: 
  Alaska, Arizona, Arkansas, Colorado, Connecticut, Delaware, 
  Guam, Hawaii, Idaho, Indiana, Iowa, Kansas, Kentucky, 
  Louisiana, Maine, Maryland, Massachusetts, Minnesota, 
  Mississippi, Missouri, Nebraska, New Hampshire, New Mexico, 
  North Carolina, North Dakota, Oklahoma, Oregon, Rhode Island, 
  South Dakota, Tennessee, Utah, Vermont, Washington, Wisconsin; 
  March 18, 2013.................................................   960
Matthew H. Mead, Governor, State of Wyoming: Gregory Phillips, 
  March 14, 2013, letter.........................................   964
Alan B. Johnson, United States District Judge, State of Wyoming: 
  Gregory Phillips, March 18, 2013, letter.......................   965
Hon. G.K. Butterfield, United States House of Representatives, 
  State of North Carolina: Karol Virginia Mason, February 26, 
  2013, letter...................................................   967
Hon. Robert J. Dole, Alston and Bird, L.L.P., Washington, DC: 
  Karol Virginia Mason, February 27, 2013, letter................   969
Robert D. McCallum, Jr., Atlanta, Georgia: Karol Virginia Mason, 
  February 28, 2013, email and fax...............................   971
Rodney Monroe, Chief of Police, Charlotte, North Carolina: Karol 
  Virginia Mason, undated letter.................................   973
Hon. Blanche L. Lincoln, United States Senate, State of Arkansas: 
  Karol Virginia Mason, March 1, 2013, letter....................   974
Laurie O. Robinson, Clarence J. Robinson Professor of 
  Criminology, Law, and Society, George Mason University, Burke, 
  Virginia: Karol Virginia Mason, March 2, 2013, letter..........   975
Richard H. Deane, Jr., Atlanta, Georgia: Karol Virginia Mason, 
  March 4, 2013, letter..........................................   977
Larry D. Thompson, Greenwich, Connecticut: Karol Virginia Mason, 
  March 4, 2013, letter..........................................   979
Randy Byrd, President, North Carolina Police Benevolent 
  Association, Inc., McDonough, Georgia: Karol Virginia Mason, 
  March 5, 2013, letter..........................................   981
Roy Cooper, Attorney General, State of North Carolina, Raleigh, 
  North Carolina: Karol Virginia Mason, March 7, 2013, letter....   982
Joseph C. Akers, Jr., Interim Executive Director, National 
  Organization of Black Law Enforcement Executives, Alexandria, 
  Virginia: Karol Virginia Mason, March 13, 2013, letter.........   983
W. Ron Allen, Tribal Chairman/CEO, Jamestown S'Klallam Tribe, 
  Jamestown, Virginia: Karol Virginia Mason, March 18, 2013, 
  letter.........................................................   984
Timothy Ballew, II, Chairman, Lummi Indian Business Council, 
  Bellingham, Washington: Karol Virginia Mason, March 14, 2013, 
  fax............................................................   985
Bob Kelly, Chairman, Nooksack Indian Tribe, Deming, Washington: 
  Karol Virginia Mason, March 15, 2013, letter...................   986
Dave Lopeman, Chairman, Squaxin Island Tribe, Shelton, 
  Washington: Karol Virginia Mason, March 15, 2013, fax..........   987
George Thurman, Chief, Sac and Fox Nation, Stroud, Oklahoma: 
  Karol Virginia Mason, March 15, 2013, fax......................   988
Gregory E. Pyle, Chief, Choctaw Nation of Oklahoma, Durant, 
  Oklahoma: Karol Virginia Mason, March 15, 2013, fax............   989
Joseph P. Torre, Chairman, Joe Torre Safe at Home Foundation, New 
  York, New York: Karol Virginia Mason, March 28, 2013, letter...   990
                              ----------                              

                     ALPHABETICAL LIST OF NOMINEES

Alejandro, Nitza I. Quinnones, Nominee to be U.S. District Judge 
  for the Eastern District of Pennsylvania.......................   527
Gonzales, Kenneth John, Nominee to be U.S. District Judge for the 
  District of New Mexico.........................................   429
Kelly, Claire R., Nominee to be a Judge of the Court of 
  International Trade............................................   228
Kelly, Jane, of Iowa, Nominee to be Circuit Judge for the Eighth 
  Circuit........................................................   788
Mason, Karol Virginia, Nominee to be an Assistant Attorney 
  General........................................................   893
Moore, Raymond P., Nominee to be District Judge for the District 
  of Colorado....................................................    78
McShane, Michael J., Nominee to be U.S. District Judge for the 
  District of Oregon.............................................   488
Phillips, Gregory Alan, Nominee to be Circuit Judge for the Tenth 
  Circuit........................................................   845
Restrepo, Luis Felipe, Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   587
Roman, Nelson Stephen, Nominee to be District Judge for the 
  Southern District of New York..................................     9
Schmehl, Jeffrey L., Nominee to be U.S. District Judge for the 
  Eastern District of Pennsylvania...............................   650
Torres, Analisa, Nominee to be District Judge for the Southern 
  District of New York...........................................   116
Watson, Derrick Kahala, Nominee to be District Judge for the 
  District of Hawaii.............................................   184


  NOMINATION OF HON. NELSON STEPHEN ROMAN, OF NEW YORK, NOMINEE TO BE 
DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK; RAYMOND P. MOORE, 
OF COLORADO, NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF COLORADO; 
HON. ANALISA TORRES, OF NEW YORK, NOMINEE TO BE DISTRICT JUDGE FOR THE 
   SOUTHERN DISTRICT OF NEW YORK; DERRICK KAHALA WATSON, OF HAWAII, 
NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF HAWAII; AND CLAIRE R. 
KELLY, OF NEW YORK, NOMINEE TO BE A JUDGE OF THE COURT OF INTERNATIONAL 
                                 TRADE

                              ----------                              


                      WEDNESDAY, JANUARY 23, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Christopher 
Coons, presiding.
    Present: Senators Coons, Whitehouse, Blumenthal, Hirono, 
Grassley, and Lee.
    Senator Whitehouse [presiding]. The hearing will come to 
order. I am Senator Sheldon Whitehouse of Rhode Island. I am 
filling in briefly for my friend, Senator Coons of Delaware, 
who is in the Benghazi hearings right now. I am doing this as a 
favor to him, and when he arrives, I will depart. So if anybody 
is speaking when I get up and depart, do not take it 
personally. It is nothing you said.
    We are here for the nomination hearings of Justice Nelson 
Stephen Roman, to be United States District Judge for the 
Southern District of New York; Raymond P. Moore, to be United 
States District Judge for the District of Colorado; Justice 
Analisa Torres, to be United States District Judge for the 
Southern District of New York; Derrick Kahala Watson, to be 
United States District Judge for the District of Hawaii; and 
Claire R. Kelly, to be Judge of the United States Court of 
International Trade.
    We have a tradition in the Senate of Senators' recommending 
to the President nominees for these judicial offices, and so we 
will begin this hearing with the statements of Senators who 
have nominees for whom they wish to say a word. We will lead 
with--the order will be, first, Senator Mark Udall; then 
Senator Michael Bennet; then Senator Kirsten Gillibrand, if she 
is here; then Senators Brian Schatz and Mazie Hirono.
    So that is the order of proceeding, and, Senator Udall, you 
have the floor.

PRESENTATION OF RAYMOND P. MOORE, NOMINEE TO BE DISTRICT JUDGE 
   FOR THE DISTRICT OF COLORADO, BY HON. MARK UDALL, A U.S. 
               SENATOR FROM THE STATE OF COLORADO

    Senator Udall. Senator Whitehouse, good morning. Thank you 
for that kind introduction. I also want to thank Chairman Leahy 
and Ranking Member Grassley and the Judiciary Committee for 
providing a few minutes for me to speak, as well as my 
wonderful colleague, Senator Bennet.
    We are here to introduce our nominee to be a federal 
district court judge for the District of Colorado, Raymond Paul 
Moore. My belief, and I know Senator Bennet's belief, is that 
Raymond Moore is exceptionally well qualified to fill this 
judicial vacancy, and I would urge his confirmation.
    The President nominated Raymond Moore to fill a vacant seat 
on the federal district court of Colorado, which was recently 
declared a judicial emergency due to a very heavy caseload. Mr. 
Moore, who was recommended by a bipartisan judicial selection 
panel, I know stands ready and able to fill that vacancy.
    Based in part on Mr. Moore's broad experience as a public 
defender for Colorado and Wyoming, I have no doubt that he will 
serve with distinction. Quite simply, he has the right 
temperament, commitment to service, and belief in our Nation's 
judicial system--qualities I know that we all look for in a 
federal judge.
    Mr. Moore is currently the federal public defender for 
Colorado and Wyoming where he has served for nearly 20 years, 
first as an assistant federal public defender in the trial 
unit, where he represented clients charged with federal 
criminal offenses who could not afford their own legal 
representation. Today, as the leader of that office, he is 
responsible for supervising attorneys and managing the 
operation of that office.
    Prior to his service at the public defender's office, Mr. 
Moore spent a total of 10 years with the distinguished Denver-
based law firm of Davis, Graham & Stubbs. During his time in 
private practice, Mr. Moore worked in general litigation 
covering a broad range of practice fields, including real 
estate, water, and oil and gas. He was appointed as partner in 
1987.
    Originally from Boston, Massachusetts, Ray Moore was raised 
in public housing projects. Ray was able to overcome the 
adversity and obstacles that he faced in growing up in poverty 
and excelled academically. He was the first member of his 
family to attend college, graduating cum laude from Yale, where 
he met his wife, Reine. Mr. Moore also received his law degree 
from Yale in 1975.
    Shortly before graduating from law school, he headed to 
Denver, where he completed a summer associate position at 
Davis, Graham & Stubbs, launching his decades-long connection 
to Colorado.
    Mr. Chairman, Senator Bennet and I enlisted a bipartisan 
judicial selection advisory panel to help us make 
recommendations to the President for court vacancies in 
Colorado. Former Colorado Supreme Court Justice Rebecca 
Kourlis, a Republican, co-chaired the advisory committee with 
Hal Haddon, a prominent Denver lawyer and Democrat.
    When this process began, we knew that Chief Judge Daniel 
would take senior status at the beginning of 2013. However, 
with the quick work of our advisory panel, we were able to make 
recommendations to the President, and he was able to nominate 
Mr. Moore nearly two months before the vacancy came open. What 
made that possible was our advisory panel working tirelessly to 
interview and put forward the most qualified candidates.
    While we were presented with truly impressive and qualified 
candidates, it was clear then and it is even clearer now that 
Ray Moore will make an excellent judge for Colorado. So I was 
not surprised when I learned that the American Bar Association 
unanimously rated Raymond Moore well qualified, their highest 
rating to serve as a federal district judge.
    Mr. Chairman, as I mentioned a moment ago, Colorado's 
federal district court was just rated a judicial emergency by 
the Administrative Office of the U.S. Courts due to its 
caseload. In addition, the Judicial Conference of the United 
States recommended the creation of an eighth judgeship on the 
district court. Suffice it to say we need to fill this vacancy, 
and Ray Moore is the right man for the job.
    Senator Coons, Senator Grassley, Senator Hirono, I want to 
thank you and the Committee for affording me time this 
afternoon to introduce Ray Moore.
    Senator Coons [presiding]. Thank you, Senator Udall.
    I would now like to invite Senator Bennet to also speak in 
support of Raymond Moore.

PRESENTATION OF RAYMOND P. MOORE, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE DISTRICT OF COLORADO, BY HON. MICHAEL BENNET, A U.S. 
               SENATOR FROM THE STATE OF COLORADO

    Senator Bennet. Thank you, and I cannot tell you, Mr. 
Chairman, what joy I have sitting here addressing you as ``Mr. 
Chairman.'' I am delighted to see you and the Ranking Member, 
Senator Grassley, and Members of the Committee.
    I would like to associate myself with everything my senior 
Senator said and join him in this really incredible opportunity 
for our State to speak on behalf of Raymond Moore to serve on 
the U.S. district court for the District of Colorado. I would 
also like to welcome his wife, Reine, and his children, Miles 
and Rachel.
    As Senator Udall mentioned, Mr. Moore was selected from an 
outstanding pool of Colorado candidates through a bipartisan 
committee of highly respected leaders and thinkers in 
Colorado's legal community. And I want to thank Senator Udall, 
in particular, for his leadership in approaching what should 
be, and was, in our case, a bipartisan effort to find the very 
best person for this vacancy.
    As he mentioned, we face an emergency in Colorado in terms 
of the number of judges. We do not view this as a partisan 
effort. We believe this is a nonpartisan effort, and I think 
the process that Senator Udall established to fill this vacancy 
is one that could be a model for the entire country, so I want 
to thank him for that and for his work. I am incredibly proud 
of the seriousness, resolve, and efficiency of the committee in 
its approach to its work, and it ensured a fair and accountable 
selection process.
    I wholeheartedly support Mr. Moore's nomination to serve on 
the U.S. district court. Ray grew up in the projects of Boston 
in a community that struggled with violence and poverty. He was 
part of a working-class family. Neither of his parents ever 
completed high school. With determination and drive, Ray rose 
from those humble beginnings to eventually graduate from Yale 
Law School, as the Chairman did, and became an attorney with an 
outstanding career, as Senator Udall said, that spanned 34 
years. He has earned a reputation as being a thoughtful and 
tireless worker among his peers. His collegiality and quick wit 
have earned him many friends along the way. We could use a 
little more of the quick wit around here, I think.
    He currently served as a federal public defender for 
Colorado and Wyoming. He has previously served in the U.S. 
Attorney's Office in Colorado and worked as a litigator, as 
Senator Udall said, at one of our most respected law firms.
    His colleagues from across Colorado's legal community speak 
passionately of his work ethic, even temperament, and 
commitment to our legal system. Prosecutors talk of Ray's zeal 
for ensuring that criminals and wrongdoers are brought to 
justice. And public defenders who work closely with Ray praise 
his capacity for impartial and apolitical decision making.
    As a federal public defender, Ray has seen firsthand how 
our broader judicial system is strengthened when a defendant 
has access to quality representation. He has also witnessed the 
unique challenges that low-income communities often encounter 
in our federal courts. Thirty-four years' worth of co-workers, 
colleagues, and occasional adversaries praise Ray as a nominee 
who goes through life with an open mind. But he has also 
demonstrated a passion for those core principles he knows to be 
right.
    The District of Colorado is one of the busiest federal 
judicial district in the Mountain West with a rising number of 
total case filings. So I hope that the Senate will act quickly 
to fill this vacancy. This will help avoid delays and backlogs 
that will affect Colorado's legal system in the months to come.
    Raymond Moore truly is an exemplary nominee, a true legal 
scholar with a sharp mind, a deep sense of purpose, and a 
commitment to the rule of law. He will make a first-rate 
federal district judge, and I urge this Committee and my 
colleagues to support his confirmation.
    Thank you, Mr. Chairman, for your time and for your 
consideration of Raymond Moore.
    Senator Coons. Thank you, Senator Bennet. I am grateful to 
both the Senators from Colorado for contributing to this 
introduction. Recognizing your busy schedules, I encourage any 
Members who are here for introduction who need to do so to feel 
comfortable excusing yourselves.
    We now turn to Senator Gillibrand, who will speak in 
support of Analisa Torres, nominee to be district court judge 
for the Southern District of New York.

   PRESENTATION OF HON. NELSON STEPHEN ROMAN, NOMINEE TO BE 
  DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK; HON. 
 ANALISA TORRES, NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN 
  DISTRICT OF NEW YORK; AND CLAIRE R. KELLY, NOMINEE TO BE A 
 JUDGE OF THE COURT OF INTERNATIONAL TRADE, BY HON. KIRSTEN E. 
     GILLIBRAND, A U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. I will also speak on behalf of Claire 
Kelly and Judge Nelson Roman as well since Senator Schumer will 
not attend today.
    Thank you, Mr. Chairman and distinguished Members of the 
Committee. I appreciate your being here today. I am very 
honored to be able to introduce Analisa Torres, and I am 
pleased to offer my strong support for her nomination to the 
United States district court for the Southern District of New 
York.
    Today she is joined by her husband, Mr. Stephen Whitter, 
along with her father, the Honorable Frank Torres, former New 
York State Supreme Court Justice, and her mother, Mrs. Yolanda 
Torres, as well as a number of other family members.
    I also want to thank President Obama for acting on my 
recommendation in nominating another superbly qualified female 
jurist to the federal bench.
    My experience with Judge Torres has shown her to be fair-
minded, a woman of great integrity. Her lifetime of public 
service and legal experience serving as a jurist, an attorney, 
and serving her community has earned her the respect of her 
colleagues, and her body of work demonstrates her 
qualifications to serve on the federal bench.
    Ms. Torres currently serves as a justice on the New York 
County Supreme Court. Previously she served on the New York 
County Supreme Court as an acting justice for almost 10 years. 
In her current role, she exemplified pragmatism and has 
demonstrated consistent commitment to thoughtful, sound, and 
fair reasoning. Judge Torres received her J.D. from Columbia 
University School of Law and graduated from Harvard College.
    In addition to her professional work, she has shown an 
enduring commitment to her community. She currently chairs the 
Women's Housing and Economic Development Corporation, a role 
she has served in since 2007, after serving as a director there 
for almost a decade.
    There is no question that Judge Torres is extremely well 
qualified and well suited to serve as a federal court judge. I 
strongly believe this country needs more women like her serving 
in the federal judiciary, an institution that I believe needs 
more exceptional women.
    Over the last several years, the number of women in the 
federal judiciary has stagnated, hovering at roughly 500, less 
than a third of the federal bench. According to the National 
Women's Law Center, there are currently 82 vacancies on the 
federal district and appellate courts. The nonpartisan 
Congressional Research Service recently determined that we are 
in the longest period of historically high vacancy rates in 35 
years. Accordingly, jurists across the country, including 
Supreme Court Chief Justice John Roberts, have urged the U.S. 
Senate to act expeditiously on pending judicial nominations. 
With greater diversity of gender, ethnicity, and professional 
backgrounds, we can ensure our judiciary more closely resembles 
the great country we live in. And these are not just ideals 
that we should aspire to, but steps we should take to have a 
more diverse judicial system.
    I have no doubt that having Judge Torres serving in the 
federal judiciary will bring us closer to that goal. I was 
honored to recommend her for this position, and I urge swift 
approval of her confirmation.
    I am also pleased to introduce to the committee Nelson 
Stephen Roman to be United States district judge for the 
Southern District of New York, and Claire R. Kelly to be a 
judge in the United States Court of International Trade. They 
are joined by their family members, and I would like to take 
this opportunity to publicly recognize, acknowledge, and thank 
the wonderful and supportive families of all of our nominees.
    First, Judge Nelson Roman, currently an associate justice 
for the New York State Supreme Court Appellate Division, a 
position he has held since 2009. He previously served as a 
justice of the New York State Supreme Court, as a judge for the 
New York City civil court, and as a judge of the housing part 
of the New York City civil court. Prior to becoming a judge, he 
was assistant district attorney in Kings County as well as a 
special narcotics assistant district attorney.
    As a native New Yorker, Justice Roman received his B.A. 
from Fordham University and his J.D. from Brooklyn Law School, 
where he attended at night while serving as a New York City 
police officer.
    Claire R. Kelly has been nominated to the U.S. Court of 
International Trade. Ms. Kelly is a professor at Brooklyn Law 
School where she teaches classes on international trade, 
international business law, and administrative law. Before 
this, she spent four years as an associate and three years as a 
consultant specializing in customs and trade law at Coudert 
Brothers in New York City. A native New Yorker, Professor Kelly 
received her J.D. from Brooklyn Law School and her B.A. from 
Barnard College.
    While it is true that we live in a more diverse world and 
we have come a long way in filling the ranks of the legal 
world, we still have a long way to go to achieve full equality. 
Confirming these three exceptional nominees quickly would be a 
great step in the right direction.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Gillibrand.
    I will now turn to Senator Schatz to offer an introduction 
of Derrick Watson, nominee to be district court judge for the 
District of Hawaii.

 PRESENTATION OF DERRICK KAHALA WATSON, NOMINEE TO BE DISTRICT 
JUDGE FOR THE DISTRICT OF HAWAII, BY HON. BRIAN SCHATZ, A U.S. 
                SENATOR FROM THE STATE OF HAWAII

    Senator Schatz. Thank you, Mr. Chair, Ranking Member 
Grassley, and my great colleague, Senator Hirono. I am honored 
to introduce Derrick Kahala Watson for consideration as the 
next United States district court judge for the District of 
Hawaii.
    In Mr. Watson's distinguished career, he has displayed 
exemplary legal skills, a strong work ethic, and acted with 
integrity and fairness in his decade as a federal prosecutor 
and attorney in Northern California and Hawaii. He has also 
served in the Judge Advocate General's Corps, United States 
Army, where he assisted in mobilizing soldiers with their legal 
affairs.
    In over 10 years of private practice, Mr. Watson 
specialized in product liability, toxic tort and environmental 
cost recovery litigation, and principally operated in the 
federal court.
    From 1995 to 2000 and again from 2000 to the present, Mr. 
Watson served as Assistant United States Attorney in the 
Northern District of California and now in the District of 
Hawaii. His work has covered all manner of civil litigation at 
the trial and appellate court levels, including claims under 
the Federal Tort Claims Act, employment discrimination and 
harassment actions, individual capacity claims brought against 
government employees for alleged constitutional violations, 
programmatic challenges under the Administrative Procedures 
Act, and privacy and information claims under the Privacy Act 
and Freedom of Information Act.
    In addition to his professional responsibilities, while in 
private practice, Mr. Watson has been active in the community, 
representing pro bono clients, bringing human-trafficking, 
common law tort, and wage and hour claims on behalf of Mexican 
nationals in the San Francisco Bay area. He also worked with 
the San Francisco Lawyers Committee for Civil Rights to 
successfully challenge the Hanford Union High School District's 
electoral system, which had prevented the election of a 
Hispanic member for decades, despite Hispanics' constituting a 
majority of residents in the district, and assisted other 
residents with landlord-tenant and credit problems.
    If confirmed, Mr. Watson will be only the fourth person of 
Native Hawaiian ancestry to serve and the only Native Hawaiian 
serving as an Article III judge. Mr. Watson's nomination is an 
important step in promoting diversity in the federal judiciary 
by experienced and qualified individuals.
    Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Schatz.
    And I would now like to offer a very special welcome to 
Senator Mazie Hirono from Hawaii. Today is Senator Hirono's 
first hearing as a Member of the Senate Judiciary Committee, 
and it is an honor to welcome you to it. Senator Hirono will 
also introduce Derrick Kahala Watson.

 PRESENTATION OF DERRICK KAHALA WATSON, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE DISTRICT OF HAWAII, BY HON. MAZIE K. HIRONO, A 
             U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. Thank you, Mr. Chairman, and I also want to 
thank Chairman Leahy and Ranking Member Grassley for scheduling 
this hearing and, in particular, for including Derrick Watson, 
the nominee to fill the district court vacancy in my State. And 
I would also like to thank Mr. Watson for presenting my 
colleague, Senator Brian Schatz, and myself with these 
beautiful lei. You can always tell we are from Hawaii because 
we are the ones with the leis. Aloha to you.
    My colleague, Senator Schatz, has done a great job of 
outlining Mr. Watson's qualifications, so I will keep my 
comments brief.
    Mr. Watson had a distinguished career in the private sector 
during two tenures in the United States Attorney's Office and 
in the United States Army Reserve JAG Corps. He was born in 
Hawaii and moved back in 2007, and we are glad to have him back 
home, and I am happy that he is here today.
    I want to acknowledge his family members in the audience 
because I know that all of our nominees would not be here 
without the support of their family, and in Mr. Watson's case, 
most of them have traveled from Hawaii to be with him today. 
And if you could just wave, because you have come a long way: 
his wife, Gloriann; his two sons, Cade and Daly, ages six and 
three; his father-in-law and mother-in-law, Frank and Gwen 
Dalere; his sister-in-law, Kimberley Holkup; and his two 
nieces, Saige and Saber Holkup, ages eight and two. Welcome. 
Aloha to all of you. And, of course, Mr. Watson, welcome. I 
wish you a very speedy confirmation.
    Thank you, Mr. Chairman.

  OPENING STATEMENT OF HON. CHRISTOPHER COONS, A U.S. SENATOR 
                   FROM THE STATE OF DELAWARE

    Senator Coons. Thank you, Senator Hirono, and welcome again 
to the Committee.
    Today, as we begin the 113th Congress, there are 83 
vacancies in our judiciary. This is a historically high number 
for the beginning of a President's second term, nearly three 
times the number of vacancies at a comparable time in the 
previous administration.
    As most of these vacancies are in the district courts, the 
courts Americans most need to be fully staffed so they can 
receive their day in court, I am pleased we have been able to 
move so quickly in this new Congress to convene this hearing 
today.
    Now, this hearing is an important step in the process of 
filling some of these many vacancies and ensuring the courts 
are there to do the work our people expect of them. We will 
hear from our four district court needs today, and I look 
forward to the Senate's swift action on the President's 
nominations of those four nominees and our additional nominee 
for the Court of International Trade.
    Before we--excuse me. Senator Grassley, have you already 
had a chance to make your opening statement?
    Senator Grassley. I am going to put it in the record.
    Senator Coons. You will put it in the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Coons. So, Senator Grassley, having completed the 
introduction of the nominees, I will now swear in our nominees 
today. Would the five nominees please approach and stand, if 
you would, at your respective chairs? Please stand and raise 
your right hands. Do you solemnly swear that the testimony you 
are about to give to this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Justice Roman. I do.
    Mr. Moore. I do.
    Justice Torres. I do.
    Mr. Watson. I do.
    Ms. Kelly. I do.
    Senator Coons. Please be seated. Thank you. Let the record 
show the nominees have answered in the affirmative.
    I would now like to invite each of our five nominees today 
to give an opening statement, and I welcome your recognition of 
loved ones and supporters who may be with you and very much 
look forward to hearing from you.
    We might start with the Honorable Nelson Roman.

STATEMENT OF HON. NELSON STEPHEN ROMAN, NOMINEE TO BE DISTRICT 
          JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK

    Justice Roman. Thank you, Senator. Good morning.
    Senator Coons. Good morning.
    Justice Roman. Thank you for this opportunity to appear 
before you and present my credentials. I would like to take 
this opportunity to thank some very special individuals. I 
would like to start off with thanking President Obama for his 
most humbling nomination; Senator Schumer for his support and 
for his longstanding commitment to a strong and independent 
judiciary; to Senator Gillibrand for her gracious introduction. 
To the Senate Committee Members, thank you for hosting this 
hearing.
    I would like to take this opportunity now to introduce my 
family members, if I can, beginning with my lovely wife of 22 
years, Carol Robles-Roman. We met approximately 30 years ago 
while we were attending Fordham College. I think it was an 
international law class. She was trying to get the notes off 
me.
    [Laughter.]
    Justice Roman. She is an attorney. She is the deputy mayor 
and counsel to the mayor of the city of New York. More 
importantly, she is the mother of our two children: my oldest, 
Ariana Roman, 15 years old and a first-year student in high 
school; Andres Roman, who is seven years old and happens to be 
a budding soccer star. And I am proud to say that I am his 
coach.
    My parents, who flew in from Florida: My father, Nelson 
Roman, who is a retired New York City fireman, and I am proud 
to say he was one of the first firemen to serve with the FDNY. 
My mother, Aurea Roman, she is very special because she 
instilled in our family a deep Christian faith.
    And my two sisters are here with me. My sisters Elizabeth 
and Esther, thank you for traveling here to support me.
    I would like to acknowledge a family friend, Carlos Ortiz, 
who is a former President of the Hispanic National Bar 
Association.
    And, last, I would like to acknowledge my court family back 
in New York State, beginning with Chief Judge Jonathan Lippman, 
who graciously appointed me to my first judicial post; my 
colleagues on the Appellate Division First Department; and my 
court staff.
    Thank you, Senator.
    [The biographical information of Justice Roman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
     
    
    Senator Coons. Thank you, Judge Roman.
    Now I would like to invite Raymond Moore to make your 
introductory statement.

STATEMENT OF RAYMOND P. MOORE, NOMINEE TO BE DISTRICT JUDGE FOR 
                    THE DISTRICT OF COLORADO

    Mr. Moore. Thank you, Senator. I would like to begin by 
thanking the President of the United States for the nomination 
and the faith in me. I am truly humbled by it.
    I would also like to thank the Chair, the Ranking Member, 
and all Members of this Committee for the opportunity to appear 
today and respond to their questions.
    I would like to recognize some family that I have here with 
me today. My wife of many decades, whom I met in college, 
Reine, is here, and without her love and support, I would not 
be here or be anywhere near what I am today.
    We have three children, the eldest of which is in 
California and unable to attend, Nathan Moore. My other 
children are here: my daughter, Rachel, and my youngest son, 
Miles.
    I am also joined by a partner in the law firm of Davis, 
Graham & Stubbs, a man named Charles Casteel, who is one of the 
first persons that I met when I moved to Colorado initially as 
a summer clerk in 1977, I believe. Again, I am humbled by his 
support.
    I have no other statement to make. Again, I simply express 
my appreciation for the opportunity.
    [The biographical information of Mr. Moore follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
           
    
    Senator Coons. Thank you, Mr. Moore.
    I would like to invite the Honorable Analisa Torres to next 
make her statement.

STATEMENT OF HON. ANALISA TORRES, NOMINEE TO BE DISTRICT JUDGE 
             FOR THE SOUTHERN DISTRICT OF NEW YORK

    Justice Torres. Thank you, Chairman Coons, Ranking Member 
Grassley, and Senator Hirono, for holding this hearing.
    I also thank Senator Gillibrand for her kind words and for 
recommending me for nomination.
    I am also grateful to Senator Schumer for his support.
    And thank you, President Obama, for honoring me with this 
nomination.
    Before I introduce my family and friends, I must recognize 
one person who is not in this room but whose presence is felt. 
That is my late grandfather, Felipe Torres, who would have 
taken pride in this moment.
    Here with me today is my incomparable husband, Stephen 
Whitter. Our daughter, Elena, could not make it to Washington, 
but is watching the Webcast at Earlham College in Indiana.
    My parents, Frank and Yolanda Torres, are present, as are 
my brother, Ramon Torres; my sister, Andrea Torres Mahone, and 
her husband, Glenn Mahone; their son, Paco Mahone, and his 
wife, Denise, are also here, accompanied by their little boys, 
Amon and Gabriel, who is my godson. The Mahones flew in from 
Pittsburgh.
    My mother-in-law, Carol Whitter, jetted up from Florida, 
and my two sisters-in-law, Roxanne and Janeen, traveled from 
Detroit and Boston.
    My aunt, Alma Torres Warner, came down from New York, as 
did my cousin, Alexis Rodriguez; and my friends Linda 
Arastondo, Emily Goodman, Marcia Johnson, and Carlos Ortiz.
    My faithful law clerk, Elba Galvon, is also present.
    My uncle, Bob Garcia, is one of the people joining us from 
the D.C. area, as are Wendell Jenkins, Meryl Chertoff, Greg 
Klass, Melvin Williams, and Michael Fauntroy.
    Thank you, everyone, for coming.
    [The biographical information of Justice Torres follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Senator Coons. Thank you, Your Honor.
    At this point I would like to ask unanimous consent to 
introduce to the record statements by Chairman Leahy and 
Senator Schumer in support of today's nominees. Without 
objection.
    [The prepared statements of Chairman Leahy and Senator 
Schumer were not submitted for the record.]
    And I apologize. I have to excuse myself for five minutes 
to join a hearing on Benghazi on the Foreign Relations 
Committee. Senator Grassley will act as Chair in my absence, 
and I should rejoin you in just a few moments.
    Thank you.
    Senator Grassley [presiding]. Mr. Watson is the next 
person.

  STATEMENT OF DERRICK KAHALA WATSON, NOMINEE TO BE DISTRICT 
                JUDGE FOR THE DISTRICT OF HAWAII

    Mr. Watson. Chairman Grassley, thank you for this 
opportunity. I would like to thank a few people along the way, 
including Senator Hirono and Senator Schatz, this morning for 
their kind words. Thank you.
    I also wanted to thank the late Senator Daniel Inouye for 
his support through my nomination back in November as well as 
the now-retired Senator Daniel Akaka. Both of them were 
instrumental in my sitting here this morning, and I certainly 
appreciate their support over the last year.
    I wanted to thank Senator--excuse me--President Obama as 
well.
    I wanted to recognize, Chairman Grassley, my family members 
who have traveled from Honolulu to be with me here this 
morning: my wife, Gloriann; my two kids, Cade and my three-
year-old, Daly; my father- and mother-in-law, Gwen and Frank 
Dalere; and my sister-in-law, Kimberley Holkup, with her two 
kids, Saige and Saber Holkup, who is two years old.
    In particular, I also wanted to recognize, Chairman 
Grassley, the late United States Army colonel and paratrooper 
Leroy Bass. Many of you, and probably most of you, do not know 
Colonel Bass, but he was a teacher of mine at the Kamehameha 
Schools back when I was a sophomore. He taught a course called 
simply ``The Law.'' He does not know it and probably never 
did--I never had an opportunity to express my appreciation to 
him--but he inspired my interest in the law and has as much to 
do with me sitting here today as anyone. And I wanted to 
express my thank you to him and to his family.
    Thank you, Chairman.
    [The biographical information of Mr. Watson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Grassley. Now Ms. Kelly.

  STATEMENT OF CLAIRE R. KELLY, NOMINEE TO BE A JUDGE OF THE 
                  COURT OF INTERNATIONAL TRADE

    Ms. Kelly. Thank you, Mr. Chairman. I would like to thank 
you and the Committee for this hearing, and I would like to 
thank the President for the honor of the nomination.
    With me here today, I would like to acknowledge my husband, 
Joseph DiBartolo, and thank him for all his love and support. 
Our son, also Joseph, or J.J., is six, so he is in first grade 
today, but he will watch this later, so I want to make sure I 
thank him for his love and support.
    My mother-in-law, Ann DiBartolo, would have loved to have 
been here today, but she is making sure my son gets back and 
forth to school safely.
    I am proud to have my father-in-law, Joseph DiBartolo, also 
a New York City firefighter for over 30 years.
    My cousins, the Kilgens--Richard, Bernadette, and Krista. 
And my good friend and administrative assistant for the last 15 
years, Ms. Golda Lawrence, was able to make the trip.
    My brothers, Dennis and John Kelly, were not able to make 
it because of work commitments, but I do know they will be 
watching, and I thank them for that.
    Our father, George Kelly, passed away when we were young, 
but I wanted to acknowledge his profound effect on our lives.
    I would like to also acknowledge my friends and colleagues 
at Brooklyn Law School, and especially my students. I had to 
cancel Administrative Law to be here, so I appreciate their 
understanding.
    And, last, I wanted to acknowledge and thank my mother, 
Rita Kelly, who is here today. For most of my life, my mom 
worked two and sometimes three jobs to give my brothers and I 
advantages that she did not have. I would not be here without 
her today, and I would not be anywhere. And I am very grateful 
for the opportunity to be able to thank her.
    And thank you for allowing me to acknowledge my family.
    [The biographical information of Ms. Kelly follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

    
    Senator Grassley. I will start questioning, and if my 
colleagues would not object if I take a little over five 
minutes so I can go through the whole panel, so I can go to 
another meeting? Okay.
    I will start with Mr. Roman, and I think I have just a 
couple questions for you. In the case named Matter of Darryl C, 
you joined an opinion tossing out a weapons possession case 
against a 14-year-old boy stopped by the police and found to be 
carrying a semi-automatic pistol. It is my understanding that 
this took place during school hours in a high-crime area and 
that the police observed him holding a suspicious object.
    So, just simply, I am asking you to explain your decision 
in the case.
    Justice Roman. Thank you, Senator, for the question.
    Senator, as an appellate court judge, my role in cases such 
as this----
    Senator Grassley. Is your microphone on, please? Is the red 
light on?
    Justice Roman. There it is.
    Senator Grassley. Thank you.
    Justice Roman. I am sorry, Senator. Thank you for the 
question. First, let me start off by saying that as a former 
New York City police officer and having conducted quite a 
number of search-and-seizures and stop-and-frisk, I am 
extremely sensitive to these types of cases. However, I 
recognize that my role as a judge is quite different than that 
of a police officer or even that of my role as a former 
prosecutor.
    As an appellate court judge, my role was very simple. In 
cases such as this, we defer factual and credibility 
determinations to the hearing court, and then we determine 
whether or not the proper rule of law was applied.
    In this particular case, deferring all credibility and 
factual determinations to the hearing officer, the family court 
judge, the family court judge just merely got--applied the 
wrong standard of law. In this instance, the family court judge 
ruled that, upon reaching into the juvenile's pocket and 
feeling or finding what he determined to be the handle of a 
gun, the police officer the had reasonable suspicion to believe 
that the juvenile had committed a crime. That, Senator, is 
merely a misapplication of the law, and there are references to 
the facts which are, I think, more particularized in the 
majority opinion which corresponds to the facts as articulated 
by the testifying officer. And for that basis, I ruled that it 
was a misapplication of law.
    Senator Grassley. Okay. My last question to you would be in 
regard to the Supreme Court addressing the Second Amendment in 
Heller and again in McDonald. What is your understanding of the 
rights afforded by the Second Amendment?
    Justice Roman. It is a right that is afforded to all, 
Senator. I have not had an opportunity to study those cases. 
However, Senator, I am prepared to follow the rule as it is 
articulated by the Supreme Court decisions. As I have done in 
the past, I have always followed the prevailing rule, absent 
any personal feelings that I may have.
    Senator Grassley. Okay. Mr. Moore, a couple questions. In a 
statement to the U.S. Sentencing Commission public hearing, you 
said that district judges should not base their sentencing 
decisions on personal sentencing philosophies or on their 
``personal views.''
    Do you think that this is a problem in the federal courts? 
And what did you mean by this testimony?
    Mr. Moore. No, Senator, I do not believe that this is a 
problem. At the time I was testifying in front of the 
Sentencing Commission, I was doing so as a representative of 
the defender community and expressing the views of the defender 
community as a whole. My comment was simply to say that in 
these times, I did not believe that there was a reason to 
retreat from the advisory guideline system that we now have, 
largely because I believed that judges were being fair and 
impartial and applying the rule of law as handed down by the 
Supreme Court.
    Senator Grassley. Okay. Last question. Are there Sentencing 
Guidelines that you feel are unjust or should not be followed?
    Mr. Moore. Again, Senator, no is the simple answer.
    Senator Grassley. Okay.
    Mr. Moore. I have been an advocate, obviously, for the 
federal defenders. I have also served as an Assistant U.S. 
Attorney. I understand, or at least believe I understand, all 
sides of this issue. I bring no preconceived animus against any 
guideline or policy or position. All cases, if I am fortunate 
enough to be confirmed, that I would decide would be decided on 
the basis of the law and the facts.
    And if I might take five seconds to correct an oversight, I 
want to acknowledge the kind words of both Senators Udall and 
Bennet in their introductions and hope that I can live up to 
their kind projections.
    Thank you.
    Senator Grassley. Thank you.
    Ms. Torres, just a couple questions. If confirmed, would 
you commit to protect an individual's right to possess a 
firearm?
    Justice Torres. Yes.
    Senator Grassley. Number two, you were quoted in an article 
as saying, ``I try to listen, not just to legal arguments made 
by counsel, but to people's feelings.'' If confirmed as a 
district court judge, what role would people's feelings have in 
your rulings?
    Justice Torres. The role of a judge is to apply the law to 
the facts and in that way decide a case. In doing so, a judge 
must inform herself about the relative positions that are being 
put forth by the parties, and in some cases individuals express 
feelings about their positions, and I must understand 
everyone's point of view in order to be fully informed. That is 
what I meant.
    Senator Grassley. Okay. Mr. Watson, I have a few more 
questions for you, not to find any fault with anything but to 
learn from your experience. And this comes from the fact that 
in 1986 I authored an update of the Federal False Claims Act, 
which reinvigorated the qui tam provisions and has helped 
recover more than $30 billion. In fact, I think the Justice 
Department just announced that under the False Claims Act of 
1986, it so far has brought in somewhere between $32 billion 
and $33 billion.
    Your background materials indicate that as an Assistant 
U.S. Attorney, you have handled a number of these false claims 
cases, so I have got five questions, but I am going to give 
them to you one at a time.
    Could you please briefly describe your experience with the 
False Claims Act in general and specifically any work you did 
with qui tam whistleblowers?
    Mr. Watson. Certainly, Chairman. The qui tam provisions of 
the False Claims Act are perhaps the most significant tool in 
my estimation that the Department of Justice utilizes in its 
civil prosecutions. As you just mentioned, in fact, the 
Department of Justice--not just this past fiscal year but for 
the last several fiscal years that I am aware of--has collected 
more moneys through the False Claims Act provisions than the 
Justice Department as a whole expends, and that alone, I think, 
speaks volumes of its utility.
    More particularly, Chairman, I have handled a number of 
False Claims Act cases, both inside and outside the qui tam 
provisions, both as an Assistant United States Attorney with 
the Northern District of California, San Francisco, as well as 
the District of Hawaii. I have handled cases recovering civil 
monetary recoveries against physicians, Medicaid/Medicare fraud 
cases exceeding seven figures on multiple occasions. Obviously 
I cannot comment on current qui tam cases that are under seal 
and pending in our district.
    Senator Grassley. Sure.
    Mr. Watson. But I have handled many, both in San Francisco 
as well as Honolulu, in the last five years.
    Senator Grassley. Okay. During the litigation of False 
Claims Act cases that you handled, did you ever prepare 
memoranda advocating for or against intervening in a case filed 
by a qui tam whistleblower?
    Mr. Watson. Yes.
    Senator Grassley. So you did do memoranda one way or the 
other?
    Mr. Watson. That is correct, Senator.
    Senator Grassley. Okay. In your experience, did you ever 
receive approval to intervene in a matter, only to have that 
approval reversed or subsequently withdrawn?
    Mr. Watson. No, I have not.
    Senator Grassley. Okay. If you were to receive such a 
subsequent declination, would you find that unusual?
    Mr. Watson. It would be unusual in that in my 10-year, 11-
year career now with the United States Attorney's Office, it 
has never occurred.
    Senator Grassley. And do you have any views regarding--
well, what is your view regarding the constitutionality of the 
False Claims Act and qui tam provisions?
    Mr. Watson. My view on it is that it is constitutional.
    Senator Grassley. Okay. Now, Ms. Kelly--and then I just 
have about the same number of questions, but based upon just 
getting information, not with any fault with your position, in 
2003 you wrote an article analyzing the legality of Executive 
Order 13303, a 2003 Executive order issues by President Bush. 
Your analysis began with Youngstown, the famous steel seizure 
case, where the court described the limits of Executive power.
    Justice Jackson described three areas or levels of 
Executive power:
    First, the President's authority to act is strongest when 
he acts with the express authorization of Congress;
    Second, the President's authority is in, according to 
Jackson's words, ``a zone of twilight'' when Congress is 
silent;
    And, third, the President's authority is at its lowest ebb 
when the President takes measures ``incompatible with the 
express or implied will of Congress.''
    So about three or four questions. Based on your 
understanding of Youngstown, if Congress expressly granted the 
President authority to take an action and the President did so, 
would it be correct to say that the President would be 
operating safely within his constitutional powers?
    Ms. Kelly. Yes, it would.
    Senator Grassley. Second, based on Youngstown, is it your 
understanding that the President has the least constitutional 
authority when he acts against the express or implied will of 
Congress?
    Ms. Kelly. Yes, Senator.
    Senator Grassley. Three, based on Youngstown, if Congress 
expressly prohibited an agency from taking a particular action 
and yet the President nonetheless issued an Executive order or 
Presidential memoranda directing the agency to perform that 
action, do you believe a court would view the Presidential 
Executive order as constitutionally suspect?
    Ms. Kelly. Well, speaking in the abstract, that is what 
Youngstown seems to say. I mean, I would have to look at all 
the Supreme Court precedent, Dames & Moore, other precedent 
carefully and look at the act and how Congress had acted. But 
just based upon my article, what I wrote in the Arizona Law 
Review, that is the framework that Youngstown sets out.
    Senator Grassley. And then, last, if you were presiding 
over a case where the President acted in the lowest ebb of 
Presidential authority--and I am not talking about a specific 
case, just generally--what factors would you consider when 
analyzing whether the President's action was unconstitutional?
    Ms. Kelly. Well, I would look to the Youngstown factors and 
any other Supreme Court factors that are laid out for that 
specific context--in the Law Review article, for example, the 
Dames & Moore case--but I would look to what the Congress had 
said on the matter specifically and what the Congress might 
have done implicitly in case there were any implied 
authorization, and I would look to inherent Presidential power.
    Senator Grassley. Okay.
    Mr. Chairman, you see I went over a long time, but I asked 
permission of my colleagues before I started.
    [Laughter.]
    Senator Grassley. You are not Mr. Coons. You are Mr. 
Blumenthal. So that is why----
    Senator Blumenthal [presiding]. I would have happily given 
you permission.
    Senator Grassley. Thank you. Thank you. I am done now.
    Senator Blumenthal. Thank you, Senator Grassley.
    Senator Grassley. Thank you all very much for your time.
    Senator Blumenthal. Thank you.
    Unless my friend Senator Lee objects, I am going to call on 
the distinguished Senator from Hawaii to ask questions at this 
point, and then we will go to Senator Lee.
    Senator Hirono. Thank you, Mr. Chairman.
    First of all, I wanted to commend all of our nominees. You 
have very interesting and extensive personal backgrounds as 
well as, of course, your legal backgrounds. So I just have a 
few questions.
    Mr. Moore, you have had extensive experience in the federal 
courts. Can you discuss your views on what qualities the best 
judges possess?
    Mr. Moore. Thank you, Senator. I think the qualities 
include the ability to narrowly constrain oneself to the issue 
before the court; fairness, obviously; impartiality; the 
ability to be transparent in explaining one's decision and the 
rationale for it; adherence to the principles of stare decisis; 
a commitment to the work necessary; patience; listening to the 
analyst and the parties.
    I may have missed some qualities, but I think that that 
generally would sum up what I believe would be the qualities 
that would make for a good judge.
    Senator Hirono. Would the other nominees be in agreement? 
If any of you have any other qualities that you would consider 
to be very important for someone sitting on the federal bench, 
please, federal court? Did you want to add something, Ms. 
Torres.
    Justice Torres. First, the ability to listen well; to be 
evenhanded; to have the courage to do what you believe is 
right; to speak and write clearly so that people who are not 
lawyers understand what you are saying; to know the Rules of 
Evidence and to know the substantive law.
    Justice Roman. I would only add that we not prejudge any 
particular case and not bring our own individual opinions into 
the matter.
    Senator Hirono. I have a question for you, Mr. Roman. You 
have served on the State court for 15 years. Can you tell us 
why you at this point would like to serve on the federal bench?
    Justice Roman. Senator, thank you for the question. I have 
a long-lasting commitment to public service. I have been in 
public service for 30 years now, having started as a New York 
City police officer when I was only 21 years old. And now I 
currently serve as an appellate court judge in the New York 
State intermediate court, which is one of the most prestigious 
courts in the country.
    That being said, I could think of no greater honor than to 
serve my country at the national level as an Article III judge.
    Senator Hirono. Thank you.
    Ms. Torres, you mentioned being able to listen very 
carefully, so can you describe a time when your background or 
experience allowed you to approach a case in a different way 
than someone without your kind of background or experience 
might have looked at a case?
    Justice Torres. I have tried to approach all of my cases 
with impartiality and fairness, and my colleagues on the New 
York State bench, I believe, have also done the same. I do not 
know that there is anything special about my background that 
would make me more impartial or more fair.
    Senator Hirono. I am going to save the last question for 
the nominee from Hawaii. You practiced law in California for 15 
years before moving back home, and we are glad to have you 
home. What motivated you to leave California and come back to 
Hawaii at that point in your career?
    Mr. Watson. After being away for so long, Senator Hirono, I 
could use one word to sum it up: family. The reason for my 
move--or our family's move--was the birth of our first son, 
Cade, in November 2006. We moved--I looked for a job 
immediately that month, recognizing that his grandparents on 
both mother's and father's side were in Hawaii, still are in 
Hawaii, make their homes in Hawaii, and have no intention of 
leaving Hawaii. And, quite frankly, neither do we. That was the 
reason for our decision to leave the Bay Area at that time.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Now Senator Lee.
    Senator Lee. It is good to have all of you here, and it is 
also nice to have your families with you. Why don't we start 
with Judge Roman. I saw you brought Ariana but not Andres. Is 
that punishment--oh, he is here.
    Justice Roman. They are both here.
    Senator Lee. Okay. The soccer star is here. I just wanted 
to make sure that Andres was not getting left out or that he 
was not in trouble for something.
    [Laughter.]
    Senator Lee. So when you were in practice, your practice 
was primarily criminal. Is that right?
    Justice Roman. I started as a prosecutor, as an assistant 
DA in Kings County, and as a special narcotics prosecutor.
    Senator Lee. And then since you have been on the bench, you 
have been largely civil?
    Justice Roman. Largely civil, but in the past three years 
as an appellate court judge, I have handled--in addition to 
complex civil matters, complex commercial matters--I have also 
handled criminal appeals.
    Senator Lee. How did you find that transition from 
primarily criminal practice into handling civil matters 
routinely, particularly before you went on and started 
handling----
    Justice Roman. It was quite an adventure, but it was the 
most amazing adventure for me. I love research and writing, and 
I love immersing myself in the subject matter. I love the law, 
and I was a quick learner, and I was fortunate enough to have 
clerked for two years for a judge who served in the civil 
court. I learned a great deal. And as a result, I must say I 
was very fortunate to have been able to serve shortly 
thereafter as a judge in the housing court part and then as a 
civil court judge and then as a Supreme Court judge.
    Senator Lee. One of the differences that I see between a 
civil practice and a criminal practice is that there is really 
no analog to the motion for summary judgment in a criminal 
practices. You have got motions to dismiss. You have got 
evidentiary motions. But there really is not a summary judgment 
process, and the summary judgment motion plays a pretty 
prominent role in civil litigation.
    I see a tendency on the part of some judges sometimes to 
handle summary judgment motions in one of two ways. In a close 
case, where they are not sure whether they have got a genuine 
issue of material fact, some judges might be inclined to cut 
the cards one way, saying let the plaintiff have his or her day 
in court. Others might be inclined to say, no, let us clear up 
my calendar and move it forward.
    Overall, I think the pull for judges is more naturally in 
the direction in a close case of denying a motion for summary 
judgment because it produces less work for the judge in the 
short term. They do not have to write an opinion which might 
get overturned on appeal, and the case may well settle long 
before it gets to trial. So there is something of a perverse 
incentive on the part of a judge to deny a motion for summary 
judgment as long as it is close.
    Do you have any thoughts on that matter?
    Justice Roman. Senator, I have had the opportunity to 
resolve a host of dispositive motions, motions to dismiss, 
summary judgment motions, both at the trial court level and I 
have reviewed hundreds of dispositive motions at the appellate 
level. I believe it is each and every judge's responsibility to 
address each and every motion on its merits and let the chips 
fall where they may. I have never shied away from making a 
decision.
    Senator Lee. There are things a judge can do to look out 
for this natural tendency to want to deny it rather than grant 
it?
    Justice Roman. As I said, I have never shied away from a 
motion no matter how difficult it is, and if it warrants a 
certain conclusion, that is how I call them.
    Senator Lee. Great.
    Judge Torres, I wanted to talk to you about your career. 
You have had a very accomplished and interesting career, 
started out largely in real estate, as I understand it, and 
then you moved into the judicial system, serving as a law clerk 
in your State judicial system. Was that a difficult transition, 
moving from real estate into sort of a judge support model, and 
then into the role as a judge?
    Justice Torres. I did not find it difficult. I found it 
fascinating, exhilarating. I enjoyed very, very much the 
opportunity to get back to reading cases and writing decisions. 
It was a wonderful experience working for Judge Wilk.
    Senator Lee. More interesting in some ways than writing up 
the land deals and things like that, I would imagine. I have 
never been a transactional lawyer, so I do not know, but I 
would imagine that would have been a fun transition to make.
    Justice Torres. Contracts and mortgages do have their level 
of interest.
    [Laughter.]
    Senator Lee. Well said. Very well said.
    So your experience has been largely, perhaps entirely, 
within the State court system?
    Justice Torres. Yes.
    Senator Lee. And now that you have been nominated to be a 
federal district judge, your role would be changing. Should you 
be confirmed, you will be transitioning into a completely new 
system with new rules. What do you think you can do to help 
prepare yourself for that transition and help ease it and make 
sure that it goes out smoothly?
    Justice Torres. The first thing that I have done is that I 
have spoken to the three Southern District judges who went from 
the State to the federal bench to get their guidance about how 
they made that transition.
    I have also taken advantage of the materials that are 
available through the Federal Judicial Center. I have been 
studying on my own the Federal Rules of Civil Procedure and the 
Criminal Procedure Rules, and I believe that I can get up to 
speed quickly. I am confident about that.
    Senator Lee. Great. Thank you very much, and I see my time 
has expired, Mr. Chairman.
    Senator Coons [presiding]. Thank you, Senator Lee.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
to each of our nominees for being here today. And I want to 
join in thanking your families and friends who have stood by 
you with such loyalty and support in a very arduous process. I 
note that each of you was nominated during the last session, 
and you have hung in there, so to speak, and braved this 
process a second time around. And I want to thank you for your 
endurance in this process and say very seriously it should not 
be the kind of marathon that it has been, in many instances, 
for many of our nominees because the demands of that process 
itself are in a sense discouraging and deterring to some of our 
most able people. And I am glad that some of our most able 
attorneys like yourselves are willing to continue and go 
through it and then to serve.
    And I know, as a trial lawyer myself before having this 
job, that your service is supremely important to our Nation. As 
Judge Roman has remarked, an Article III judge for countless 
people across the country is the voice and face of justice. 
People tend to focus on the U.S. Supreme Court, but for many 
litigants, as you well know, the district court is the place 
where they go to seek justice. And so is the Court of 
International Trade.
    So this is a really awesome and profoundly significant 
responsibility, and I thank you for devoting the work that you 
will do, the countless hours. People do not realize that the 
hours that you spend on the bench are a fraction of the time 
that you will devote to your opinions and research and 
evidentiary considerations. So I am here primarily to express 
my thanks.
    Each of you is very well qualified, in my view, and I am 
delighted particularly that a number of you have law 
enforcement backgrounds. Judge Roman, Judge Torres, Mr. Watson, 
you have been prosecutors, and, Mr. Moore, as a public 
defender, you have very direct experience in the criminal 
justice system as well, and I think that kind of experience 
bodes very well for the kind of real-life experience that you 
will bring to the bench, which is so important.
    Let me just ask a question, perhaps of Judge Roman and 
Judge Torres and Mr. Watson, about your experience as a 
prosecutor. Do you think that will inform or impact your 
judgments in sentencing, in criminal justice issues? Just as a 
personal or human impression, if you could answer.
    Justice Roman. Senator, as I indicated before, I believe 
the role of a judge is to render decisions in a neutral fashion 
and not to do so--or not to impose one's personal belief. I 
believe my experience just makes it--it gives me a different 
perspective on the law, and it brings a certain sensitivity. 
However, my role is very specific, and that is to apply the 
rule of law and only the rule of law on the particular facts. 
And that is what I have done in the past, and that is what I 
will continue to do.
    Senator Blumenthal. Thank you.
    Judge Torres.
    Justice Torres. Senator Blumenthal, although I have handled 
criminal matters for 11 years, I did not serve as a prosecutor 
beforehand.
    Senator Blumenthal. But you have handled felony cases, 
serious criminal matters?
    Justice Torres. Oh, absolutely.
    Senator Blumenthal. And do you think that will impact your 
service as a district court judge?
    Justice Torres. Yes, that will inform me, as well as the 
amount of civil matters that I handled during my 20 years 
serving the New York State judiciary.
    Senator Blumenthal. Mr. Watson.
    Mr. Watson. Senator Blumenthal, I would echo the comments 
of Judge Roman ahead of me that this is the challenge that all 
of us who have litigated extensively throughout our careers 
face in the transition between being an advocate and what will 
hopefully be our upcoming roles as a jurist. We have that 
challenge of impartially applying the rule of law regardless of 
what we have done prior to now, and that includes my work with 
the United States Attorney's Office as well as my work as an 
advocate in the private sector. So while that will be a 
challenge, it is one that I am confident I can meet.
    Senator Blumenthal. And, Mr. Moore, how do you think your 
service as a public defender will impact, if at all, your 
service as a judge?
    Mr. Moore. Senator, the parallel I would draw is this one: 
I have spent a number of years serving the government 
representing individuals without regard to public opinion as to 
the individuals' conduct, without regard to what I might 
personally think about that individual's defense or any of the 
other matters that are the topic of conversation between 
counsel and client.
    I would think the ability to do that would hopefully serve 
me well as a judge, being able to apply the law, do what is 
best and right, without regard to public opinion, without 
regard to any personal beliefs that I may have with respect to 
the subject matter, to be neutral and to give the service every 
ounce of energy that I can.
    Senator Blumenthal. Thank you. Thank you all for your 
willingness to serve, and I look forward to considering your 
nominations. Thank you.
    Senator Coons. Thank you, Senator Blumenthal.
    Recognizing the press of time, I might ask one question 
that gives an opportunity for each of you to reflect on some of 
the balance between your previous service and the service on 
which we hope you are about to embark as judges in our federal 
system.
    You have a very broad range of experiences. Whether in 
private practice, as an academic, as a prosecutor, as a judge, 
as a police officer, as someone who has been involved in 
advocacy or who has handled cases in the private sector on a 
pro bono basis, you have seen a very wide range of human 
experience and a very wide range of the roles that our courts 
can play and our judiciary can play in ensuring access to 
justice and ensuring a swift and legally sound decision.
    So I would just ask if you might, each of you in turn, 
offer some comment about the most important lessons you have 
learned in the various legal positions you have held about how 
do we ensure fair access to justice in our legal system and how 
will you apply the lessons more broadly that you have learned 
in your service as attorneys in your role as a federal district 
court judge or a judge on the Court of International Trade, 
should you be confirmed. Judge Roman, if you might.
    Justice Roman. Senator, one of the most important lessons 
that I have learned over the course of 30 years is to listen 
very carefully and to allow individuals who seek our services, 
whether it be as a police officer, as a prosecutor, or as a 
judge who seek our services, to listen very carefully and to 
give them their fair respect and to give them their day in 
court, regardless of how minor the claims may be or how serious 
the claims may be. So it is important to give everyone their 
fair day in court and to pay them respect.
    Senator Coons. Thank you, Judge.
    Mr. Moore.
    Mr. Moore. Senator, I have seen the courtroom from a lot of 
different perspectives.
    Senator Coons. Yes, you have.
    Mr. Moore. What is clear to me is that, regardless of what 
perspective or what branch or segment of litigation appears in 
front of a judge, everyone wants the same thing. They want to 
be heard; they want to be listened to; they want to have their 
views considered; and they would like to have their issues 
resolved promptly.
    I would hope and do commit that I would do everything in my 
power to be fair, to be prompt, to be decisive, to be 
transparent, and to give, if you would, a fair shake to 
everyone who appears--criminal, civil--and hopefully be able to 
increase the number of cases that can get through the Colorado 
system, give everyone their day in court, if they would, and 
their day out of court as well.
    Senator Coons. It is my only hope that the Senate could 
begin to model that behavior of being fair, prompt, and 
decisive.
    Judge Torres.
    Justice Torres. The most important lesson that I have 
learned is that a judge must adhere to the law and apply it 
impartially.
    Senator Coons. Thank you.
    Mr. Watson.
    Mr. Watson. Mr. Chairman, two things come to mind in 
listening to your question. The first is utilizing the tools of 
case management to allow litigants--primarily I am thinking 
civil litigants--access to the district court, and that, I 
think, require the use--and, fortunately, in Hawaii we have 
three excellent magistrate judges that assist the district 
court judges in promptly resolving both our cases criminal and 
civil.
    The second thing that comes to mind is adjudicating motions 
for appointment of counsel, and in the criminal context it is 
quite different, but in the civil context, there is a limited 
right to representation and appointment of outside counsel in 
certain cases. And that is my commitment to this Committee, is 
to promptly adjudicate those motions and looking for those 
cases. Usually those who are looking are pro se at that point 
in time, not looking to change counsel, and determining whether 
outside counsel can benefit litigants in the most need.
    Senator Coons. Thank you, Mr. Watson.
    Professor Kelly.
    Ms. Kelly. Yes, Senator. The two things that I have found 
most important are fidelity to the rule of law and clarity in 
expressing the rule by the judges, both as a practitioner, as a 
teacher, and in my work with the Customs and International 
Trade Bar Association. If the courts are faithful to the rule 
of law, apply the law as written, and then explain it clearly, 
everyone benefits.
    Senator Coons. Thank you.
    Professor Kelly, you have both written and spoken about the 
need to expand the jurisdiction of the Court of International 
Trade. I would be interested if you might just expound on that 
briefly.
    Ms. Kelly. Well, I have worked with the Customs and 
International Trade Bar Association over the years regarding 
their effort to expand the court's jurisdiction. There are some 
very specific proposals that I think are under consideration in 
a bill by the Congress. So there are some instances where 
perhaps a matter would be heard currently in district court, 
where there are very busy dockets, criminal dockets, and so one 
might have to go to district court to get a subpoena where it 
is involving an import matter. It would be just as easy and 
would seem to make a lot of sense to go to the Court of 
International Trade. So it is my understanding there is a very 
detailed proposal to better use the Court of International 
Trade.
    Senator Coons. I have been interested in your trade secret 
work and in this jurisdictional work. I will not engage 
everyone on it now, but I would certainly be interested in 
following up with you on that.
    Of the four of you who are nominated for Article III 
judgeships, for district court judgeships, you have in 
different roles at different times been engaged in reviewing 
the role of legislated standards, whether it is mandatory 
minimums or otherwise. And I would just be interested if our 
four district court nominees would, in turn, speak to the 
question of what is the role of the federal judiciary at the 
district court level in interpreting acts of the legislative 
body, particularly ones that might expand jurisdiction or might 
change rules of procedure, might impose mandatory minimums. How 
do you go about correctly interpreting and applying the will of 
the legislative branch as a member of the federal judiciary? If 
you might, Judge Roman.
    Justice Roman. What I do each and every time that I look at 
a statute is to read the statute, give words their plain 
meaning, and then I would look to judicial precedents for 
guidance. If confirmed, I would look to the Second Circuit and 
to the Supreme Court for guidance on those issues.
    Senator Coons. Thank you, Your Honor.
    Mr. Moore.
    Mr. Moore. I agree with what Judge Roman has to say. I 
would say that the paramount thing that one must do is to be 
true to the language of the enactment, whether it be statute or 
regulation, whatever is under consideration at that time. If 
its meaning is plain, then apply it. If there is some 
ambiguity, then one can begin to look to the precedent that 
applies, obviously the Supreme Court and, in my case, the Tenth 
Circuit Court of Appeals as well. And there are other rules of 
statutory interpretation that would come into play, but the 
critical aspect is to apply the words of the statute and give 
them their plain meaning, respect the intent of Congress as 
expressed in that plain meaning, and that is what I would hope 
to do.
    Senator Coons. Thank you, Mr. Moore.
    Judge Torres.
    Justice Torres. I concur with what Judge Roman and Mr. 
Moore stated.
    Senator Coons. Mr. Watson.
    Mr. Watson. Well, at the end of the line, Senator, I really 
do not have any--I cannot create new rules of statutory 
interpretation than have already been expressed.
    Senator Coons. Very wise answer.
    [Laughter.]
    Senator Coons. And a reminder to those of us who serve in 
Congress to draw what lines we draw with precision and clarity.
    Senator Hirono, do you have any additional questions?
    Senator Hirono. Thank you. With your indulgence, I started 
this hearing by thanking Chairman Leahy and Senator Grassley 
for scheduling this hearing so that we can fill these vacancies 
as promptly as possible and for including, of course, Mr. 
Watson from Hawaii in this panel and lineup.
    I also want to thank the Chairman's staff and the Ranking 
Member's staff for making this hearing possible and all of the 
other hearings to follow. We could not do it without all of 
you. So thank you very much.
    Senator Coons. Thank you, Senator Hirono.
    I would like to ask unanimous consent to include letters of 
support in the record of this hearing. I understand there are 
15 such letters for Justice Roman, and any other letters. So, 
without objection, if we might include letters of support in 
the record.
    [The letters appears as a submission for the record.]
    Senator Coons. There being no further questions from this 
panel, we will hold the record open for a week so that Members 
of the Committee who were not able to attend today due to 
conflicts in their schedules who wish to submit written 
questions have the opportunity to do so.
    I would like to thank each of our five superbly qualified 
and determined and dedicated to public service nominees today 
and your families for your patience and your endurance and your 
dedication to improving the quality of justice in our country. 
I thank you for being here today and congratulate you on your 
nominations, and I know I share the wish of all of you and your 
families that you might proceed swiftly to consideration by the 
full Senate.
    Thank you. We stand in recess.
    [Whereupon, at 11:18 a.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    



NOMINATIONS OF KENNETH JOHN GONZALES, NOMINEE TO BE U.S. DISTRICT JUDGE 
FOR THE DISTRICT OF NEW MEXICO; MICHAEL J. McSHANE, NOMINEE TO BE U.S. 
     DISTRICT JUDGE FOR THE DISTRICT OF OREGON; NITZA I. QUINNONES 
 ALEJANDRO, NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT 
  OF PENNSYLVANIA; LUIS FELIPE RESTREPO, NOMINEE TO BE U.S. DISTRICT 
JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; AND JEFFREY L. SCHMEHL, 
     NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
                              PENNSYLVANIA

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:36 a.m., Room 
SD-226, Dirksen Senate Office Building, Hon. Mazie Hirono 
presiding.
    Present: Senator Lee.

OPENING STATEMENT OF HON. MAZIE HIRONO, A U.S. SENATOR FROM THE 
                        STATE OF HAWAII

    Senator Hirono. This hearing will come to order. Good 
afternoon, everyone. I'm pleased to call this nominations 
hearing of the Senate Committee on the Judiciary to order. This 
is my first nominations hearing, so I'm sure you'll be very 
kind and all of that. So as a Member of the Committee, my first 
opportunity to chair a hearing.
    I'd like to welcome each of the nominees, their families, 
and friends to the U.S. Senate and congratulate them on their 
nominations. I would like to welcome the Senators who are here 
to testify on behalf of their nominees, Senators Wyden, 
Merkley, Casey--aloha!--Toomey, Tom Udall is not here yet, and 
Heinrich. And you are all here to introduce your nominees. I 
know that Ranking Member Lee will be joining us in a little 
bit; however, we will proceed.
    We'll turn to the introduction of the nominees. I know that 
you all have pressing other commitments, so when you finish 
your introductions, please feel free to go to your other 
appointments.
    We shall start with Senator Wyden.

PRESENTATION OF MICHAEL J. MCSHANE, NOMINEE TO BE U.S. DISTRICT 
  JUDGE FOR THE DISTRICT OF OREGON BY HON. RON WYDEN, A U.S. 
                SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Thank you, Madame Chair. I want to say how 
pleasurable it is to refer to you as Madame Chair. I know this 
is your first hearing, and we're so glad to have a chance to be 
here to introduce Judge Michael McShane. For Senator Merkley 
and I, we take special pride in this nominee. Oregon has been 
blessed with a long list of distinguished judges, and we have 
every confidence that Judge McShane is going to join that list.
    With your leave, Madame Chair, I'll spare you the 
filibuster this afternoon and maybe make just a few comments. 
Then I know we want to hear from my colleague, Senator Merkley, 
as well.
    Judge McShane is a Multnomah County Circuit Court judge. He 
has worked there since 2001. He graduated magna cum laude from 
Gonzaga University and went to the Northwestern School of Law, 
Lewis & Clark College. He was at the top of his class, and he 
then began a long odyssey of public service. He worked in the 
metropolitan public defender's office.
    He also was appointed by the Oregon Supreme Court as a 
full-time pro tem judge. He's earned very high marks for his 
work by his fellow lawyers, by the American Bar Association. 
He's been singled out for his work by the Oregon State Bar 
Presidents' program, particularly getting the public service 
award for his service to the community. That's what I would 
like to highlight just for a moment, Madame Chair, is the 
extraordinary community service that Michael McShane has given 
to particularly his hometown and my hometown of Portland.
    I think, for example, what he has done for at-risk kids--
we're talking about middle school youngsters, say, sixth grade. 
He has tutored them, he has been a mentor to them. He has 
bought clothes for them, Madame Chair, with his own money. He 
has been there for some of the most vulnerable young people in 
our community. I think this is really representative of his 
commitment to service.
    In my prepared remarks I list all of the various other 
areas he's been involved in with the Job Corps internship 
program, the Cascade AIDS program where he's been a volunteer. 
But anybody who, on his own time, is involved in practically 
every good community service cause in our community, extending 
to the point where, for needy youngsters, he goes out and buys 
them clothes, that's the kind of role model, that's the kind of 
person who, when they have the extraordinary professional 
qualifications that Michael McShane has, that's the kind of 
person that we would like to see on the Federal bench.
    So let me put my prepared remarks into your hearing record, 
and perhaps just yield to my friend and colleague, Senator 
Merkley. We do make our judicial recommendations together and 
we both thought that, without reservation, Michael McShane 
would make an exceptional judge.
    [The prepared statement of Senator Wyden appears as a 
submission for the record.]
    Senator Hirono. Senator Merkley.

PRESENTATION OF MICHAEL J. MCSHANE, NOMINEE TO BE U.S. DISTRICT 
 JUDGE FOR THE DISTRICT OF OREGON BY HON. JEFF MERKLEY, A U.S. 
                SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madame Chair. It is an honor to 
be here to be with my senior Senator to mutually endorse Judge 
Michael McShane's nomination. Over his entire career, as 
Senator Wyden has pointed out, he has demonstrated a commitment 
to the law, a commitment to public service, and a commitment to 
the State of Oregon.
    He first came to Oregon as a member of the Jesuit Volunteer 
Corps. This is an extraordinary organization where young folks 
dedicate a year to simple living, direct service to the poor, 
and spiritual community. Since that time he has remained deeply 
dedicated, both to Oregon and to public service.
    I'm going to pass over the points that Senator Wyden has 
covered well and I just want to say that in the nearly 15 years 
he has served on the Circuit Court, Judge McShane has developed 
a reputation for fairness, for thoroughness, and for accuracy, 
and he has continued to serve the community as well as an 
adjunct law professor at Lewis & Clark College, an outstanding 
school of law.
    In a letter of support that I received, one member of the 
Portland law community summed up his nomination by saying, 
``What stands out to me is that Judge McShane lives and 
conducts his personal life with the same integrity, honor, 
compassion, diligence, and commitment that he displays as a 
judge.'' Judge McShane will be an excellent addition to the 
U.S. District Court for the District of Oregon, and my thanks 
to the Committee for hearing his nomination today.
    Senator Hirono. Thank you. Senator Toomey.

  PRESENTATION OF NITZA I. QUINNONES ALEJANDRO, NOMINEE TO BE 
 U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; 
LUIS FELIPE RESTREPO, NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE 
   EASTERN DISTRICT OF PENNSYLVANIA, AND JEFFREY L. SCHMEHL, 
 NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
PENNSYLVANIA BY HON. ROBERT CASEY, JR., A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Madame Chair, thank you very much for this 
opportunity. Senator Toomey and I will speak about three 
nominees for the federal bench in Pennsylvania. I'd say by way 
of summary of all three that they possess all of the qualities 
we would hope for in a judge.
    You could make a long, long list, but just a couple that I 
try to focus on: the intellect, ability, and the integrity that 
you need to be a federal judge, also the experience. Each of 
these three individuals has broad experience. Finally, then, 
the judicial temperament and the ability to conduct yourself 
appropriately as a United States District Judge. So, I can say 
that about all three.
    Just by way of a quick summary with their academic and 
their experience either as lawyers, judges, or both, first, on 
the list, Nitza Quinnones Alejandro. Judge Quinnones, since 
1991, has served as a trial judge in Philadelphia, Philadelphia 
City--meaning Philadelphia County. It's really the same. It's 
one and the same. So she's been on that bench all those years. 
She was first nominated for judicial appointment in May 1990 by 
Governor Casey, someone I knew pretty well. At that time she 
was the first state court judge that was Hispanic. I remember 
at the time when that appointment was made, and we were very 
proud of it at that time, and nothing has happened in the 
interim to diminish that pride that we have in her work.
    Judge Quinnones served as an arbitrator for the 
Philadelphia Court of Common Pleas. Prior to that, between 1980 
and 1991, she was a staff attorney with the Department of 
Veterans Affairs. She's been very active in the Bar 
Association, the Hispanic Bar Association in Philadelphia in 
recruiting young lawyers to serve.
    She was a graduate of the University of Puerto Rico School 
of Business Administration with honors, as well as the 
University of Puerto Rico Law School. I have no doubt that 
she'll serve with distinction as a member of the federal bench.
    Next, Luis Restrepo, who has had a wide and varied set of 
experiences: magistrate judge for the United States District 
Court for the Eastern District of Pennsylvania since June 2006. 
As you know, Madame Chair, when you serve as a magistrate judge 
you are chosen by federal judges, so it's a pretty high bar to 
surmount to get to that position.
    Now, prior to that he was a highly regarded attorney and 
founding member of the Krasner and Restrepo law firm in 
Philadelphia. He was an assistant federal defender with the 
Community Federal Defender for the Eastern District of 
Pennsylvania, a professor at Temple Law School.
    I'm skipping over some details, but just by way of his 
personal background, he's a native of Colombia. Judge Restrepo 
became a United States citizen in 1993. He earned a Bachelor of 
Arts degree from the University of Pennsylvania, as well as a 
law degree from Tulane University. He, as well, I have no 
doubt, will serve with distinction.
    Finally, Jeffrey L. Schmehl has now already served a judge, 
president judge for the Berks County Court of Common Pleas, 
since 1998. Berks County is on the eastern side of our State, a 
very big county, with always complex matters that come before 
the Common Pleas court in a county like that.
    Prior to his service on the bench, Judge Schmehl was a 
partner at a law firm in Reading, where he worked as an 
associate since the mid-1980s. He was a County Solicitor for 
Berks County, had his own law firm in the early 1980s. He was 
an Assistant District Attorney and prosecutor in Berks County. 
He's a graduate of Dickinson College, as well as the University 
of Toledo School of Law in 1980.
    Again, I have no doubt that he'll serve with distinction. 
It's been a great honor to get to know these individuals 
better, some of whom I knew before, but getting to know them in 
this process. It's also been a great privilege to work with 
Senator Toomey on this process, which can be long and 
laborious, but we're finally here at this point today. Thank 
you.
    Senator Hirono. Thank you very much, Senator.
    Senator Toomey.

  PRESENTATION OF NITZA I. QUINNONES ALEJANDRO, NOMINEE TO BE 
 U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA; 
LUIS FELIPE RESTREPO, NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE 
   EASTERN DISTRICT OF PENNSYLVANIA, AND JEFFREY L. SCHMEHL, 
 NOMINEE TO BE U.S. DISTRICT JUDGE FOR THE EASTERN DISTRICT OF 
 PENNSYLVANIA BY HON. PATRICK TOOMEY, A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Toomey. Thank you. Good afternoon, Madame Chairman 
and Ranking Member Lee. I appreciate your giving me this 
opportunity to help introduce Judges Schmehl, Quinnones, and 
Restrepo before this Committee. Following my and Senator 
Casey's recommendation, President Obama nominated these three 
very qualified individuals last fall, and then re-nominated 
them on January 3. I appreciate also your timely scheduling of 
this hearing.
    I would like to begin briefly by thanking Senator Casey for 
his collaboration in recommending these three nominees for the 
Eastern District of Pennsylvania. Our joint efforts over the 
last two years have resulted in five successful confirmations 
for the Keystone State, and he and I are committed to 
continuing to work together in a bipartisan fashion to fill the 
remaining Federal District Court vacancies in Pennsylvania.
    Having extensively reviewed each of these nominees' records 
and having personally spoken with each at length, I am 
confident that they each possess the crucial qualities 
necessary to be outstanding federal judges: the intelligence, 
the integrity, and the commitment to public service and respect 
for the limited role of the judiciary.
    Since my colleague, Senator Casey, has already introduced 
and described some of their background, I just want to take a 
quick moment to share a couple of additional thoughts.
    As you've heard, Judge Schmehl is a well-respected judge 
who brings a keen intellect and a breadth of experience to the 
federal court. But in addition to his work on the court, he has 
really demonstrated a strong commitment to his community, 
establishing a veterans court in Berks County to assist 
veterans in need of legal assistance.
    If he's confirmed, Judge Schmehl has made a commitment to 
sit in Reading, in Berks County. That's a courthouse that has 
not had an active judge in over three years, and it's very 
important that we fill this vacancy and provide the people of 
Berks County with the judicial representative that they ought 
to have.
    Judge Quinnones is an accomplished and respected 21-year 
veteran of the First Judicial District of Pennsylvania Court of 
Common Pleas. Her record reflects an enduring commitment to the 
Pennsylvania legal community where, in 1982, she helped found 
the Hispanic Bar Association of Pennsylvania. She is widely 
lauded in the community for her commitment to mentoring law 
students and advancing civic education for high school 
students.
    Our third nominee, Judge Restrepo, is an excellent 
magistrate judge with a strong record as an attorney in both 
the public and private sectors. Aside from his legal duties, he 
has devoted significant time to his community, founding the 
Police Barrio Project, an organization focused on improving 
relationships between the Philadelphia Police Department and 
the Latino community in Philadelphia.
    The Pennsylvania nominees before you today are highly 
accomplished in the field of law and exceedingly qualified for 
the federal bench. They are well-regarded members of their 
communities, and they possess an admirable sense of civic duty.
    Judges Schmehl, Quinnones, and Restrepo's commitments to 
being impartial and upholding the law will serve them and the 
Commonwealth of Pennsylvania well, if they are confirmed for 
the federal bench. I hope that this Committee will favorably 
report these nominees to the full Senate, and again want to 
thank you for giving me the opportunity to join you today, as 
well as giving these qualified judges the opportunity to 
testify today.
    Senator Hirono. Thank you, Senator Toomey.
    Senator Udall, would you like to introduce your nominee.

   PRESENTATION OF KENNETH JOHN GONZALES, NOMINEE TO BE U.S. 
   DISTRICT JUDGE FOR THE DISTRICT OF NEW MEXICO BY HON. TOM 
       UDALL, A U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Yes. Thank you. Good afternoon. Thank you, 
Madame Chairwoman Hirono and Ranking Member Senator Lee. I 
appreciate this opportunity to speak today, along with Senator 
Heinrich, and I'm very pleased to introduce Mr. Kenneth 
Gonzales to be U.S. District Judge for the District of New 
Mexico. Ken is an exceptional candidate, and I congratulate him 
and his family on this nomination, especially his wife 
Jennifer, their son Alex, and their daughter Abigail, who I 
believe are all here today.
    Ken is a native of New Mexico. He grew up in the beautiful 
Pojoaque Valley in northern New Mexico. He was the first in his 
family to graduate from college. With the help of scholarships 
and grants, he received his undergraduate and law degrees from 
the University of New Mexico, a school, I might add, that I am 
also proud to call my alma mater.
    After law school, Ken served as a law clerk to New Mexico 
Supreme Court Judge Joseph Baca. Then he went to work as a 
legislative assistance for our esteemed former colleague, 
Senator Jeff Bingaman. Ken began his career as a federal 
prosecutor in the U.S. Attorney's Office for the District of 
New Mexico in 1999.
    He has prosecuted a wide range of federal offenses, 
including immigration, narcotics, and violent crime cases. He 
also holds the rank of major as a judge advocate in the U.S. 
Army Reserve, which he joined in September 2001. During his 
service, he has provided critical legal assistance to hundreds 
of active and retired soldiers and spouses, both here and 
overseas.
    In 2008, he was called to active duty as a part of 
Operation Enduring Freedom, where he was away from his family 
for many months. He was stationed at Ft. Bragg and served as a 
senior trial counsel in the Office of the Staff Judge Advocate.
    Today, Ken is the U.S. Attorney for the District of New 
Mexico after being unanimously confirmed for that position by 
the U.S. Senate in 2010. He oversees a broad array of criminal 
and civil cases and has earned great respect in our legal 
community in New Mexico.
    I'd also like to note that Ken has made Indian country 
prosecutions a priority in the U.S. Attorney's Office. It's an 
area he knows well, having grown up in the backyards of Nambe, 
Pojoaque, and San Ildefonso Pueblos.
    During his tenure, he has made a real difference in 
prosecuting cases of violence against women and children. In 
his current capacity, Ken serves on the Attorney General's 
Advisory Committee, Subcommittee on Native American Issues and 
Southwest Border and Immigration Issues.
    He is also a member of the Attorney General's Advisory 
Committee's Environmental and Natural Resources Working Group. 
He's a member of the New Mexico Hispanic Bar Association and, 
if confirmed, he'll join only 56 other Hispanic active District 
Court judges, less than 10 percent of the country's 677 
District Court judgeships.
    Ken Gonzales is an exceptionally well-qualified nominee. He 
has shown a reverence for, and dedication to, the law 
throughout his career in both civilian and military positions. 
He has exhibited great expertise, commitment, and depth of 
judgment. I urge his confirmation. While he will be missed as 
our U.S. Attorney, I know that he will serve New Mexico well on 
the federal bench.
    I would just ask, Madame Chair, if I could be excused. The 
Foreign Relations is in the middle of a business meeting, and 
I'm going to try to make it back because they apparently need 
my vote. But I'm going to leave you in the very good hands of 
Senator Heinrich, and with that, thank you very much.
    Senator Hirono. Thank you very much for your testimony.
    Senator Heinrich.

   PRESENTATION OF KENNETH JOHN GONZALES, NOMINEE TO BE U.S. 
 DISTRICT JUDGE FOR THE DISTRICT OF NEW MEXICO BY HON. MARTIN 
     HEINRICH, A U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Heinrich. Thank you, Madame Chair, Ranking Member 
Lee, for allowing me to speak briefly in favor of the 
nomination of Ken Gonzales to serve as a judge on the U.S. 
District Court for the District of New Mexico.
    I would also like to thank the leadership of this Committee 
from both sides of the aisle, Senator Leahy and Senator 
Grassley, for granting Mr. Gonzales a hearing.
    I want to echo the remarks that you heard from Senator Tom 
Udall, our senior Senator, about Mr. Gonzales. I think that 
Senator Udall and former Senator Jeff Bingaman did a great job 
of providing the President with a list of very well-qualified 
candidates to fill a vacancy on the federal bench in New 
Mexico, but Mr. Gonzales is truly a standout.
    I'm pleased that the President has nominated him to fill 
this vacancy, and I'm pleased to be here today to support him. 
As we've already heard, Mr. Gonzales has a very long and 
distinguished record of public service, including service in 
our military.
    Most recently, Mr. Gonzales has served as the U.S. Attorney 
for New Mexico, as you heard from Senator Udall, a position 
that he was confirmed to by the Senate in April 2010. His 
elevation to lead that office follows more than a decade of 
service there as an Assistant U.S. Attorney.
    I'd like to focus some attention on the work that Ken has 
done as the head of that office. I think that his efforts there 
demonstrate not only his character and his intellect, but the 
dedication that he has to serving his home State and making it 
a better place for all of our residents.
    As U.S. Attorney for New Mexico, Ken has taken an 
aggressive approach to combatting drug trafficking and the 
related gun and gang violence that can have a particularly 
devastating impact on border States like New Mexico.
    For example, under his leadership the U.S. Attorney's 
Office for New Mexico has partnered with State and local law 
enforcement officials to identify the worst of the worst 
offenders in their communities so that they can be brought into 
the federal criminal justice system and face more substantial 
punishments.
    In response to concerns about a particularly alarming drug 
and gun violence problem in Chaves County, particularly in the 
city of Roswell, Ken helped develop and implement a strategy 
that engaged community stakeholders to combat the problem. As a 
result, more than 80 individuals have been arrested and charged 
by State and federal prosecutors.
    New Mexico also has significant portions of sovereign 
Native American lands within its borders, for which the U.S. 
Attorney has responsibility to prosecute criminal activity. Ken 
has taken the initiative to reorganize and focus the U.S. 
Attorney's resources to more effectively combat the higher-
than-average rates of violent crime, sexual assault, and sexual 
abuse that plague Indian country.
    This includes creating the first Indian country crime 
section within a U.S. Attorney office. This section includes a 
team of lawyers responsible for pursuing felony offenses in 
Indian country. Under his leadership, the office is also 
collaborating with tribal prosecutors to investigate and 
prosecute domestic violence occurring in more than 20 Pueblos 
and tribes located within New Mexico.
    In addition to his qualifications as a licensed attorney 
for more than 20 years, Ken is a long-time New Mexican. He was 
born and raised there, and all of his accomplishments make me 
believe that he is more than qualified to serve on the federal 
bench in New Mexico. But it is his career-long determination 
and dedication to serving the people of New Mexico that makes 
me believe that he will make an outstanding addition to the 
federal bench.
    I strongly support his nomination, and I urge this panel to 
act quickly to move his nomination to the full Senate for a 
vote. Again, thank you, Senator Hirono and Ranking Member Lee, 
for this opportunity to speak today.
    Senator Hirono. Thank you very much, Senator Heinrich.
    I think we should set up for the panel of nominees now. If 
our nominees could step up. Please have a seat. Welcome, 
everyone. As we say in Hawaii, aloha.
    There are currently 90 District vacancies in the federal 
judiciary. This is 50 more vacancies than existed at the same 
point in George W. Bush's presidency. More than 10 percent of 
the federal courts are now, or will soon be, vacant.
    According to the Congressional Research Service, this is 
the longest period of historically high vacancy rates in the 
federal judiciary in more than 35 years. We need to continue to 
work to confirm judges so that our judiciary is able to resolve 
cases in an expeditious manner and so all Americans can receive 
swift access to justice. Most of these vacancies are in the 
District Courts, which are the courts that Americans look to 
for their day in court. It is these, of course, that need 
staffing the most.
    This hearing, which I know consists of five District Court 
nominees, is an important step in the process of filling some 
of those vacancies and ensuring that the court is able to 
quickly resolve cases and do the work that the people require 
of them.
    Because federal judges are required to give priority to 
criminal cases over civil ones and the number of criminal cases 
has increased 70 percent in the past decade, judges are forced 
to delay the civil cases, often for years. This means long 
delays for American individuals and businesses seeking justice.
    In a recent interview, senior Judge Dave Ezra of Hawaii 
compared his decision to quadruple his caseload by moving from 
Hawaii to a Southwest border State in order to help judges 
there try criminal and civil cases within a reasonable 
timeframe, ``having a big wildfire in the Southwest border 
States and firefighters from Hawaii going there to help put out 
the fire.'' In other words, this is a crisis situation. I look 
forward to the Senate's swift action on the President's 
nominations.
    Now I would like to first give Ranking Member Lee an 
opportunity to say a few words.

 STATEMENT OF HON. MIKE LEE, A U.S. SENATOR FROM THE STATE OF 
                              UTAH

    Senator Lee. Thank you, Madame Chair. Thanks to each of you 
for joining us. It's a pleasure to be part of this process. We 
take this very seriously. I think, of all of our obligations as 
Senators, there is none more important than making sure that 
our federal courts are staffed with good judges. Once those 
people get nominated, it's our job to review them and proceed 
from there.
    I would like to respond to the point that we do have a 
number of vacancies. We do need to point out at the same time 
that currently 54 out of the 90 judicial vacancies open in the 
United States are not moving forward precisely because we have 
no nominee. So we are moving forward, I think, pretty 
expeditiously on those nominees that we have, but we can't move 
forward where we don't have nominees.
    These hearings are an important function for the Senate 
Judiciary Committee. The Constitution places in the Senate the 
authority to advise and consent the President on the 
President's nominees, and we take that obligation very 
seriously. The oath that each judge of the United States takes, 
and the oath that each of you will take, should you be 
confirmed to become Article Three judges, will require you to 
take an oath to affirm that you will administer justice without 
respect to persons, that you'll do equal right to the rich and 
the poor, and that you'll faithfully and impartially discharge 
and perform all duties incumbent upon a federal judge under the 
Constitution and laws of the United States.
    As Senators fulfilling our constitutional role, we look to 
ensure that a nominee is prepared to honor this oath. I look 
forward to hearing from each of you throughout this hearing. 
Thank you.
    Senator Hirono. Thank you.
    Now I'd like to ask all of you to stand so that I can 
administer the oath.
    [Whereupon, the nominees were duly sworn.]
    Senator Hirono. Thank you. Please be seated. Let the record 
show that the nominees have answered in the affirmative.
    I would now like to invite each of the nominees to give an 
opening statement and to recognize your loved ones and 
supporters. We will start with Nominee Gonzales and then we'll 
proceed to my right.

STATEMENT OF KENNETH JOHN GONZALES, NOMINEE TO BE U.S. DISTRICT 
              JUDGE FOR THE DISTRICT OF NEW MEXICO

    Mr. Gonzales. Well, thank you very much, Madame Chair, and 
thank you very much, Ranking Member Lee, for holding this 
hearing and inviting me to be here. I don't have an opening 
statement. I would like to introduce, though, my family, if I 
may. With me here is my wife of 25 years, Jennifer Gonzales. My 
being here has just as much to do with Jennifer as it does with 
anything I've done.
    And in addition, I have my son Alex, who is 15 years old. 
He's a sophomore in high school. And my daughter Abigail, who 
is eight years old. She is a second grader.
    With me also is a good friend of mine who also happens to 
be my mother-in-law, Anita Poots, and some very good friends 
who have made it to be here, Dan Alpert and Anne Franke, who 
live here in Washington and are very good friends of mine, and 
I'm so glad that they are here. Virginia White, who, after 30 
years of service to Senator Bingaman and to the people of New 
Mexico, we are proud of her. She has as much of a legacy as 
anybody in New Mexico, and I'm so glad that she is here, as 
well as Rhonda Oye-Brochner, who lives here as well, and I'm 
very glad that she is here. And Anna Marie Baca, who is here as 
well, and I'm very glad she is here.
    Of course, Madame Chair, I'd like to thank Senator Udall 
and Senator Heinrich for their very kind words when they 
introduced me today, and for their strong support of me in this 
process. I'd like to thank, of course, the President for the 
nomination and the confidence that he has placed in me, both in 
the nomination to be U.S. Attorney and then now to be District 
judge.
    I would certainly like to thank Senator Bingaman, who just 
retired just very recently, for the strong support that he has 
shown me over the years, and including support for this 
nomination.
    Madame Chair, there are a lot of people that are not here 
that I'd like to acknowledge as well and I believe are watching 
on the Webcast. First and foremost, my parents: my father, 
Santiago Gonzales, Jr., 82 years old, Korean War veteran and my 
personal hero; my mother, Florence Gonzales, who is defined, I 
think, by how she has put her children and grandchildren ahead 
of herself in every way; my siblings, my six siblings, Donna, 
her husband Clint; Monica, her husband John; Dennis, my brother 
and his wife Charlene; my sister Carol and her husband Curt; my 
sister Katrina, her husband Ward; and my brother Steve and his 
wife Mandi, as well as my 22 nieces and nephews.
    I'd also like to acknowledge, Madame Chair, the man who set 
me on this course years ago by giving me the first job I had 
out of law school, and that was the now-retired Chief Justice 
of the New Mexico Supreme Court, Joseph Baca. I very much 
appreciate everything that he did for me. I learned so much 
from him and it was by his example that I really saw how 
honorable the judges and the judiciary are in our system of 
government. He and his wife, Dorothy, could not be here, but 
they are represented by their daughter, Anna Marie Baca. I'm 
very glad that she is here.
    Last, Madame, I'd like to acknowledge all the outstanding 
men and women in the U.S. Attorney's Office in the District of 
New Mexico, as well as my colleagues in the United States Army. 
Thank you very much.
    Senator Hirono. Judge McShane.
    [The biographical information of Mr. Gonzales follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

   
 STATEMENT OF MICHAEL J. McSHANE, NOMINEE TO BE U.S. DISTRICT 
                JUDGE FOR THE DISTRICT OF OREGON

    Judge McShane. Thank you, Chair Hirono and Ranking Member 
Lee. I'd like to thank both of you, as well as the other 
Members of the Judiciary Committee and their staffs, for your 
work on this important matter.
    I would like to thank President Obama for giving me this 
opportunity. I'd like to thank Senators Wyden and Merkley for 
their kind and warm remarks here today, and I appreciate it 
very much.
    I have no statement to make. I would like to introduce some 
family members who are here with me. First and foremost is 
Jeannine McShane, my mother, who is directly behind me. She's 
been praying to St. Jude for many years for me, which, if you 
don't know, is for desperate causes, the patron of. But I'm so 
proud that she could be here, and I'm so lucky to have her and 
my father's guidance.
    Also, family members who are with me is my oldest brother 
Jim McShane, my oldest sister Colleen McShane, my youngest 
sister--Jim is from L.A., Colleen is from Seattle. My youngest 
sister, who has recently moved to Boston from the West Coast, 
has come down with--Katie McShane has come down with her 
husband, Michael Peters.
    My niece--nieces that are here are Clara and Parker Peters, 
as well as Claire McShane. Then my immediate home group is--my 
partner, Greg Ford, is here, and our nephew, Trevor Nyce. I 
would like Trevor to stand for just a moment. He's here. Trevor 
is so excited to be here. This is the first suit he's ever 
worn.
    [Laughter.]
    Judge McShane. It's been a big excitement for him, and I'm 
so glad he could participate in this. Thank you.
    Senator Hirono. Judge Quinnones.
    [The biographical information of Justice McShane follows.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    
 STATEMENT OF NITZA I. QUINNONES ALEJANDRO, NOMINEE TO BE U.S. 
    DISTRICT JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Judge Quinnones. Thank you, Madame Chair. I'd like to thank 
Senator Leahy for having convened this hearing, and you for 
having--presided over it, as well as you, Senator Lee, the 
Ranking Member of this Committee.
    I also would like to thank Senator Robert P. Casey, as well 
as Pat Toomey, for their warm words of encouragement and 
introduction, as well as their bipartisan support, and their 
nomination to the President as well. I'd like to thank the 
President also for having nominated me for your consideration.
    With me today are my partner of 23 years, Sanjuanita 
Gonzalez, who is the managing partner of her law firm, Cohen, 
Floor, Gonzalez, and Panillos; my friend and judicial 
assistant--I'm sorry, judicial secretary, Carey D. Widman, my 
law clerk, Christine Millan--I'm sorry, Christine Beck Millan. 
She just recently got married. And my court officer, Alfredo 
Jennings and his wife, Sondra.
    There are members of my family who were not able to come 
but who are probably watching on Webcast: my brother, a retired 
Colonel, Algondo Emilio Quinnones Alejandro; his wife, Maria 
Cruz Quinnones; my sister, Iliaudis Quinnones Alejandro; my 
nephews. I have four nephews and family members in Puerto Rico, 
New York, Pennsylvania, and New Jersey.
    Last, I would like to mention my parents, they're both 
deceased, Emilio Quinnones Figueroa, and my mother, Ilia Maria 
Alejandro Dis. They worked so hard to provide us an education 
and to motivate us for public service. I'm sure they would be 
so extremely proud of me today.
    Last, I want to thank you again for the opportunity of 
appearing before you, and I welcome any questions.
    Senator Hirono. Thank you.
    [The biographical information of Justice Quinnones 
follows.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Judge Restrepo.
    Judge Restrepo. Restrepo.
    Senator Hirono. Restrepo. Apologies.

STATEMENT OF LUIS FELIPE RESTREPO, NOMINEE TO BE U.S. DISTRICT 
         JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Judge Restrepo. Good afternoon. Thank you for having me. 
I'd like to start by thanking the President for having 
nominated me to this position. I'd like to thank you and 
Senator Lee for chairing this hearing, and for all the Members 
of the Judiciary Committee and their participation in the 
process. A very special thanks to Senators Casey and Toomey for 
their kind words and their generous support.
    I have no opening statement, but I do have a lot of family 
members here, and if you'll indulge me for just a minute, I'd 
like to start by recognizing my wife, Cathy, who is seated 
directly behind me, and my mother, Maria Restrepo. She is maybe 
two rows back. My father-in-law, Gene Maier; my sister, 
Patricia Loria, and four of her 10 children are here: Phil, 
Trish, Elena, and Nick. Four of my children are here: 
Catherine--I only have four.
    [Laughter.]
    Judge Restrepo. Catherine, Andrew, Nicholas, and Matthew. 
My brother, Nicholas, is here. My sister-in-law, Kate, is here 
with three of her children, Isabella, Maria, and Kristina. I 
also have quite a few friends and close family friends, as well 
as supporters in the room today, some students from Rutgers Law 
School that work with me up in Philadelphia. I'd like to thank 
all my friends and the folks that have helped me get this far 
that might be watching this by way of the Webcam. Thank you, 
Senator.
    Senator Hirono. Thank you so much.
    Judge Schmehl.
    [The biographical information of Justice Restrepo follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
 STATEMENT OF JEFFREY L. SCHMEHL, NOMINEE TO BE U.S. DISTRICT 
         JUDGE FOR THE EASTERN DISTRICT OF PENNSYLVANIA

    Judge Schmehl. Madame Chairman, Ranking Member Lee, I want 
to thank you for this opportunity. I'd first like to thank 
Senators Casey and Toomey for their warm and kind remarks and 
their confidence in recommending me to the President. I'd also 
like to thank the President for honoring me with this 
nomination. I'd like to thank the Chairman, the Ranking Member, 
and all the Members of this Committee for scheduling this 
hearing so promptly.
    Since most of my colleagues took up most of the audience, I 
don't have a whole lot of people here.
    [Laughter.]
    Judge Schmehl. But I'll explain that. My wife, April, is 
behind me, and she has been my rock and support through this 
whole process. My three children have all graduated from 
college and are gainfully employed, thank God. They are 
scattered all over the United States at various locations and 
they cannot be here.
    My father, unfortunately, passed away two years ago. My 
mother is 86 and in not good health, so she's back in Reading 
and she doesn't know how to work a computer, so she's not 
watching it on Webcast.
    [Laughter.]
    Judge Schmehl. I'd also like to recognize two of my 
colleagues who I've worked very closely with over the last five 
years that have come down here. Christian Leinbach is the 
chairman of the Berks County Commissioners and our District 
Attorney, John Adams, is seated behind my wife. So, John Adams 
is back in Washington.
    [Laughter.]
    Judge Schmehl. I would also like to recognize my staff at 
the Berks County courthouse. They are watching, I'm sure, my 
friends and colleagues in Reading. I've got a lot of messages 
that they're going to be watching. I just appreciate this 
opportunity, and I stand ready to answer any and all of your 
questions.
    Senator Hirono. I thank all of the nominees. We'll start 
with questions.
    Mr. Gonzales, you are the first U.S. Attorney whose office 
has a full section focused exclusively on addressing crime in 
the Native American communities. Can you tell us more about 
that and what challenges might exist in combatting crime and 
violence on Native American reservations?
    Mr. Gonzales. Certainly, Madame Chair, and thanks for the 
question. The--we do have a section of prosecutors in my office 
specifically dedicated to working felony prosecutions relating 
to Indian country. That was important to me to set up because 
of the prevalence of violent crime and drug trafficking that 
occurs in all 22 of our Indian tribes and Pueblos in New 
Mexico. It was important because it takes a special expertise 
to do the kind of work that's done in that section.
    But beyond that, it takes a relationship, in my opinion, 
that must be developed between my office and, really, the 
Federal Government and the people that live in each one of 
these communities. These 22 Indian tribes and Pueblos are 
scattered all over New Mexico so there's a geographic 
challenge, just being able to reach out and do the job that 
we're supposed to be doing. Lots of time and road miles are 
expended to be able to have that presence.
    There is a part of the job that requires investigation and 
prosecution, and there's a part of it that requires 
relationship building, and there's a part of it that requires 
training of law enforcement. That takes special expertise, and 
that's the idea behind the section.
    [The biographical information of Justice Schmehl follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Hirono. Thank you very much.
    Judge Schmehl, did I hear correctly that you had formed a 
veterans court?
    Judge Schmehl. That is correct.
    Senator Hirono. Can you tell me what led to you creating 
this special court and how it's working?
    Judge Schmehl. Yes, Madame Chairman, I'd be glad to. Okay. 
This is on now. Right. We were not the first county in 
Pennsylvania to form a veterans court. A veterans court was 
first formed in Philadelphia, and maybe some other counties, 
but we tried to jump on the bandwagon pretty quickly.
    It is a court--it's really part of a specialty court--and 
it's for veterans who are charged with crimes, but the cases 
are handled on the same day. The reason for that is their 
access of services. A discharged veteran, of course, has 
benefits available through the VA.
    There are many, many veterans who wish to mentor other 
veterans. This way we can bring all these people together in 
the courtroom at the same time. We can have the mentors there, 
we can have representatives from the VA there, we can actually 
take people out of the courtroom directly to treatment, if 
necessary.
    So it's just a matter of efficiency and it's a matter of 
utilizing services, and we believe it's something well worth, 
you know, looking into and utilizing.
    Senator Hirono. Thank you. It sounds like a good idea. So 
it's only a minority of jurisdictions that have this kind of a 
specialty court?
    Judge Schmehl. Yes. I think you would need the volume of 
criminal cases to do it, so smaller jurisdictions, it would not 
make sense. But in the third-class counties and larger of 
Pennsylvania, it makes a lot of sense to do that in criminal 
courts.
    It's really only like two days a month where those cases 
are handled, but that way we do have, like I said, the 
representative from the Veterans Administration and mentors who 
want to mentor people who have fallen on hard times. We have 
them present in court that day.
    Senator Hirono. Thank you.
    Judge Quinnones, I think it's important that we have 
diversity in the judiciary, just as we should seek diversity in 
Congress. Can you describe for the Committee what more can and 
should be done to increase the diversity of the bar, and what 
steps have you taken professionally to diversify the bar in 
Pennsylvania?
    Judge Quinnones. As the Senator has indicated, Madame 
Chair, I was involved in creating the Hispanic Bar Association 
in Puerto--in Philadelphia, I'm sorry--in 1982 or 1983, and we 
also created the Hispanic Bar Association Legal Education Fund, 
of which I was the first president for four years. I stepped 
down when I became a judge, since part of your judicial duties 
and the Code of Ethics prohibit you from fundraising.
    The purpose of the Bar Association was to provide an avenue 
for young graduates from college interested in going to law 
school seeing role models and being able to communicate with 
them, share experiences. The Hispanic Bar Association Legal 
Education Fund was to provide them assistance to be able to go 
to school. I've made it a point of, in the summer, hiring law 
students. Mostly have been Latinos, but they've also been non-
Latinos.
    I think there is an awareness of the Bar Association to 
become more inclusive and to open different--as an example, 
they created a position in the Bar Association for the minority 
bars, for them to be part of the governing bodies of the Bar 
Association. With that, they gave them exposure to the 
different law firms, the different opportunities that the law 
provides.
    To the extent that I can assist someone, as I introduced my 
staff, my staff is completely diverse. I mean, as I was 
introducing them, I thought about that first as the second--I 
think it's important to continue reaching out and assisting 
others to understand that we all have our opportunity, we all 
have the knowledge to contribute to our society.
    Senator Hirono. Thank you.
    My time is up, so I'd like to turn to Ranking Member Lee 
for his questions.
    Senator Lee. Thank you very much. Thanks to all of you for 
coming here and introducing us to those who have come to 
support you.
    Why don't we start with Mr. Gonzales. First of all, you and 
I have a number of things in common. Among other things, we 
both have six siblings, so that tells me something about your 
growing up. Where did you fall in the birth order, just out of 
curiosity?
    Mr. Gonzales. Second to the last.
    Senator Lee. Second to the last? Okay. So you had to hold 
up. I would imagine there was some bullying that went on among 
older siblings that probably has served you well as a 
prosecutor, and will as a judge, should you be confirmed. So, I 
think that ought to be a qualification in and of itself.
    I'm not going to ask Jennifer, Alex, and Abigail whether 
they wish that you also had a family including seven children; 
we'll leave that for another day.
    But I wanted to talk to you a little bit about a couple of 
things. First of all, you've got a very impressive resume. 
You've got a lot of experience in court, and I think it's very 
difficult to find somebody who has more experience in federal 
court than someone who has served as an Assistant U.S. 
Attorney, and later as a U.S. Attorney.
    On your questionnaire, we do see, as is understandable for 
someone who has served most of their career in the U.S. 
Attorney's Office, that it is overwhelmingly criminal. You list 
about three percent civil. Do you feel like you'd be prepared 
for the civil litigation component of your docket should you be 
confirmed as District Judge?
    Mr. Gonzales. Thanks, Senator Lee, for the question. Yes. 
My strength is on the criminal side. A substantial amount of my 
legal career has been as a criminal prosecutor. I've had some 
exposure to criminal--excuse me--to civil work as a law clerk 
relating to review of decisions on Rule 12(b)(6) or Rule 56. 
That was a long time ago, though.
    But nevertheless, I believe I can come up to speed. I'm 
fortunate the District Judges in the District of New Mexico, 
who pride themselves on being collegial within the court, have 
already reached out to me and offered assistance. I feel very 
confident I could get up to speed on the rules of civil 
procedure, the discovery practices, and be effective in this 
new role.
    Senator Lee. I'm glad to hear you mention Rule 12(b)(6) and 
Rule 56 because I think those, in handling your civil docket, 
will be two of the most important to become very familiar with 
initially. It's been my fear for a long time that the natural 
inclination of most judges might be to, in a close case, in a 
case where they might be able to go either way, to cut the 
cards in favor of denying dispositive motions, motions to 
dismiss or motions for summary judgment, because it's easier.
    That has the possibility of affecting a judge's exercise of 
discretion, consciously or otherwise. It's easier to deny the 
dispositive motion, the case might settle on its own, the case 
might never go to trial, you don't have to write an opinion, 
that opinion won't be subject to an appeal the same way a 
denial would.
    So anyway, I think it's important for judges, particularly 
those who come from a primarily criminal law background, to 
focus on those and remember that denying one of those motions 
when the motion is warranted is just as bad as granting one 
where it's not warranted.
    Judge Schmehl, I wanted to talk to you about sort of a 
related topic. So you do have--in your prior life as a 
litigator you had considerable--more considerable civil 
experience, but almost all of it was in State court, as I 
recall.
    Judge Schmehl. That's correct, Senator. Most if it was in 
State court, although I did represent municipalities, police 
departments that were charged with civil rights violations, and 
I did do some work in federal court. But most of it was in 
State court. As a trial court judge over the last eight years, 
I've tried major civil cases in our county.
    Senator Lee. You're certainly familiar with the dynamic 
that I described?
    Judge Schmehl. I am certainly familiar with that, Senator. 
In fact, I had a recent case. It was an attractive nuisance 
case where a small girl fell into, like, a pond the neighbors 
created, and I granted the motion to dismiss because I felt 
there was no liability on the property on her. Of course, I've 
been appealed. So, we'll see that.
    Senator Lee. What are the major differences that you think 
you'll need to prepare yourself for, should you be confirmed 
and should you have to make this transition, between being a 
State court judge and a federal judge?
    Judge Schmehl. Senator, I've been in a courtroom almost my 
whole life as a prosecutor, a trial attorney, and a trial 
judge, so I'm very familiar with the Pennsylvania rules of 
evidence. The federal rules of evidence are not that 
dissimilar. I've dealt with criminal statutes, I've dealt with 
Pennsylvania's sentencing guidelines. Of course, the federal 
sentencing guidelines are different, but it's the same concept.
    In civil cases, in diversity cases, it's the same thing: 
discovery, motions. There are some parts of the civil issues 
and some of the criminal statutes I will have to bring myself 
up to date on. I will study them. I will avail myself of any 
educational opportunities. I will consult with fellow members 
of the bench, and I feel that I'm a quick learner and I will be 
able to get up to speed and make this transition smoothly.
    Senator Lee. Wonderful. Thank you. Thank you, Judge.
    I've got more questions, but I see my time for this round 
has expired so we'll go on to the next.
    Senator Hirono. Please proceed.
    Senator Lee. You want me to keep going?
    Senator Hirono. Yes.
    Senator Lee. Okay. Great. Thank you. Thank you, Judge 
Schmehl.
    Next, I've got a couple of questions for Judge Restrepo. 
When you, Judge, graduated from law school you worked at the 
ACLU Prison Project, and I think that was here in DC. Can you 
just explain to us on the Committee what your responsibilities 
were in that job and how that might have shaped the rest of 
your career?
    Judge Restrepo. Sure, Senator Lee. It was my first job out 
of law school. I wanted to come back to the northeast from 
Tulane where I went to law school. I was fortunate enough to 
get a clerkship. It was not an attorney's position with the 
Prison Project. I worked there for about three or four months 
before I was fortunate enough to get a job with the Defender's 
Association of Philadelphia, and that was my first job as an 
attorney with the defenders in Philadelphia.
    Senator Lee. Okay. Thank you.
    In 1993, you wrote an article for the National Law Journal 
regarding the war on drugs and you said, ``We must demilitarize 
our approach in the drug problems, emphasizing social, 
economic, educational, and family policies targeting groups 
ignored during the Reagan/Bush years.'' What were the groups 
who were ignored during the Reagan and Bush years?
    Judge Restrepo. Well, I think, Senator, the gist of the 
article is really that we should emphasize the war on drugs 
from a demand side as opposed to a supply-side problem. Again, 
it was my personal opinion in 1993, some 20 years ago, and the 
article is making an argument, an editorial piece, suggesting 
that we should also take a look at the other side of the 
equation as opposed to what everybody traditionally thinks of 
as the war on drugs.
    Senator Lee. In other words, instead of focusing primarily, 
sometimes exclusively, on suppliers, we ought to look at who 
and what's driving the demand also.
    Judge Restrepo. Exactly. What's causing the demand? I guess 
on the theory that supply doesn't create its own demand.
    Senator Lee. Right. Yes, that's right. Federal law 
recognizes that there are both components, but the way federal 
law is enforced doesn't always reflect that, so that's a fair 
point.
    Judge Alejandro, in 2008 you participated in a panel 
discussion of the Philadelphia Bar Association's Bench and Bar 
Annual Conference and it was entitled, ``Wake Up Everybody: 
Race in the Law, a Conversation About Diversity.''
    There's no notes that we're aware of or transcript or 
recording of the event, as would be customary for an event like 
that, so I can't yet ask you any specific questions about that 
presentation. But generally speaking, do you think that a 
judge's gender diversity or any other demographic factor has 
any influence or should have any influence on the outcome of a 
particular case in that courtroom?
    Judge Quinnones. I do have an opinion, and it should not 
have any bearing whatsoever in one deciding the case.
    Senator Lee. It shouldn't have. Maybe sometimes does, but 
if it does, it shouldn't. Is that what you're saying?
    Judge Quinnones. A judge definitely should not have their 
own personal ethnicity or circumstances involved at all in the 
case. You should decide the case based on the facts before you 
and the law and precedents that have been established.
    Senator Lee. Yes. That's certainly--certainly is how it 
should work and I suppose consistent with the judges' oath that 
federal judges must take. That's the natural outgrowth of that, 
so yes, I agree.
    Last but not least, Judge McShane, so it's my understanding 
you're one of four judges that's assigned to hear death penalty 
cases in your county. Is that right?
    Judge McShane. That's correct.
    Senator Lee. How many capital punishment cases do you think 
you might have presided over?
    Judge McShane. If you include both the trials I've been 
assigned and the cases for settlement, probably 25 to 30. Nine 
have gone to trial that I've presided over.
    Senator Lee. How many of these cases resulted in the 
defendant being sentenced to a capital punishment?
    Judge McShane. One.
    Senator Lee. Can you tell us something about your ruling in 
a case--in the case of State vs. Dassa----
    Judge McShane. Dassa. Yes.
    Senator Lee [continuing]. Dassa, where I believe you 
vacated a jury conviction for aggravated murder and reduced it 
to the lesser offense of intentional murder.
    Mr. McShane. Correct.
    Senator Lee. Can you just give us sort of an overview of 
that?
    Judge McShane. Yes. So that was a case of first impression 
on statutory construction, not a constitutional issue, but a 
case of first impression in Oregon. The issue was whether the 
State's factual theory fit one of our definitions of aggravated 
murder. I looked at the language of the statute and, in looking 
at the language, it was ambiguous.
    I could not decide how to rule solely on the language of 
the statute so, with no controlling precedent in Oregon, I 
looked at the four States that had resolved the same issue, 
Alaska, Utah, and New York--maybe Nevada, I'm not sure on that.
    I was--all four States ruled against the prosecution on 
that same issue. The New York high court had issued an opinion 
that it seemed to me is persuasive of anything I had read. It 
seemed consistent with the way I was approaching the case, and 
so I did set aside then the jury verdict.
    The one thing I would point out is I was being asked to 
make that ruling pre-trial, which would have disallowed the 
case to go forward under--as a capital case. So we went through 
the trial, and I allowed the jury verdict to go into place so 
that if I was reversed--and I was--we could simply put the jury 
verdict back into place without putting the family and the 
witnesses back through a trial.
    Senator Lee. Probably a merciful approach to take under the 
circumstances. But it sounds like the ruling was, in your 
opinion, the inexorable command of the statutory text?
    Judge McShane. Correct.
    Senator Lee. And you found the other jurisdictions' 
interpretation of corresponding text in those States 
persuasive----
    Judge McShane. Yes.
    Senator Lee [continuing]. Using canons of statutory 
construction?
    Judge McShane. Yes.
    Senator Lee. Let me ask you just one more question about 
that. Let's suppose, in that case, there hadn't been other 
jurisdictions that had decided the issue, and you found 
something indicating that the statutory text at the time of its 
adoption had a meaning that was attributed to it in the floor 
debates of the State legislature, several State legislators had 
said I think it means X, and X would decide the case one way or 
another. Tell me what effect, if any, that might have had on 
you.
    Judge McShane. The parties did bring up some legislative 
history. I think, that the clearest intention of the 
legislature is the language. In the statute, it is--especially 
on a State court level where our legislative history is not 
always particularly clear.
    Senator Lee. As opposed to federal legislation.
    [Laughter.]
    Judge McShane. You often get--you're not necessarily 
getting the consensus of the legislature by hearing the 
statement of one State legislator, so I think you have to look 
to the language.
    Senator Lee. Does that reflect, then, a danger that inheres 
in an intentionalist approach to statutory construction, that 
you're not really sure who's intention you're looking at and 
it's impossible to divine the intentions of 100 people, or 435 
people all at once?
    Judge McShane. I think that's the tension that we always 
face going back in time.
    Senator Lee. Right. It's why the cases that direct us to 
look, as you said, first and foremost--first and last--at the 
statutory text are probably the best. Thank you very much. I 
appreciate that.
    Thank you, Madame Chair.
    Senator Hirono. Thank you. I would like to just do one 
follow-up question. I mean, clearly in the case that you were 
describing, Judge McShane, it just may explain why criminal 
statutes have to be very, very clear, and there shouldn't be 
much room for statutory construction in a criminal statute. But 
often that is not the case.
    So, after you did your ruling, did the State legislature 
clarify that statute to make it clearer?
    Judge McShane. No. It's interesting, in Alaska they did do 
that. The Alaska legislature did clarify the language after the 
ruling of the court.
    Senator Hirono. Thank you very much.
    I want to thank all of you for being here. The record will 
remain open for one week for Members to submit questions or 
statements.
    We are adjourned. Thank you very much.
    [Whereupon, at 4:22 p.m. the hearing was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     



NOMINATION OF JANE KELLY, OF IOWA, NOMINEE TO BE CIRCUIT JUDGE FOR THE 
                             EIGHTH CIRCUIT

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:05 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Amy 
Klobuchar, presiding.
    Present: Senators Klobuchar, Franken, and Grassley.

 OPENING STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM 
                     THE STATE OF MINNESOTA

    Senator Klobuchar. I am pleased to call this nominations 
hearing of the Senate Judiciary Committee to order. I want to 
thank Chairman Leahy for inviting me to chair this hearing.
    I want to give a warm welcome to our nominee, Jane Louise 
Kelly, who has been nominated to the Eighth Circuit Court of 
Appeals. That is the circuit that includes not only Iowa but 
also Minnesota.
    We also welcome any family and friends that have 
accompanied you, Ms. Kelly, and you will have an opportunity to 
introduce them shortly.
    If confirmed, Ms. Kelly will be only the second woman to 
ever serve on the Eighth Circuit Court of Appeals. The other 
one I know well. Judge Diana Murphy is a friend of mine, and I 
know she could use some company.
    Given this important milestone, I want to acknowledge the 
Infinity Project, which is based in Minneapolis and was created 
to advance getting more women on the Eighth Circuit bench and 
in State courts. I am happy to see their efforts paying off, 
and, of course, a lot of it has to do with the great qualities 
of this fine nominee.
    I would like to call upon my colleagues now. Senator 
Grassley, who is the Ranking Republican on the Judiciary 
Committee, has graciously said that he wanted Senator Harkin to 
go first, who is a visitor, and a welcome visitor, to our 
Committee. And with that, I will turn it over to Senator 
Harkin.

PRESENTATION OF JANE KELLY, NOMINEE TO BE CIRCUIT JUDGE FOR THE 
  EIGHTH CIRCUIT, BY HON. TOM HARKIN, A U.S. SENATOR FROM THE 
                         STATE OF IOWA

    Senator Harkin. Well, thank you very much, Madame Chair, 
Ranking Member Grassley, and other Members of the Committee who 
may be watching or arriving shortly. It is a great honor for me 
to introduce Jane Kelly, who has been nominated to serve as a 
judge on the United States Court of Appeals for the Eighth 
Circuit. I was honored to recommend this outstanding attorney 
to the President. I thank him for nominating her, and I urge 
this Committee's swift approval.
    I also want to thank Senator Leahy and the Committee for 
scheduling such a prompt hearing. I also want to thank my 
senior colleague from Iowa, Senator Grassley, and his staff for 
making this hearing possible. For many years, Senator Grassley 
and I have worked in a collaborative spirit on judicial 
nominations in our State, and I am grateful that that tradition 
has continued.
    Madame Chair, I believe Jane Kelly possesses all of the 
qualifications necessary to assume the responsibilities of a 
federal appellate judge. Before recommending Ms. Kelly to the 
President, I reviewed an unusually strong field of candidates 
for this position. She stood out as a person of truly 
outstanding intellect and character, with a reputation as an 
extremely talented lawyer with a deep sense of compassion and 
fairness. It is no surprise that she enjoys wide bipartisan 
support from the Iowa legal community.
    Judge Michael Melloy, who was nominated by President George 
W. Bush and whose seat on the Eighth Circuit Ms. Kelly is 
nominated to fill, said that Ms. Kelly, and I quote, ``is very 
intelligent and thoughtful, is a good writer, which is 
important on the appellate court.''
    Federal District Court Judge Stephanie Rose recently noted 
that Ms. Kelly ``has a great blend of personality, skills, and 
common sense to make a great lawyer and judge.''
    Iowa State Court Judge Casey Jones said that Jane Kelly is 
``one of the most brilliant people I have ever met.''
    So it is no surprise that the American Bar Association gave 
her a unanimous ``Qualified'' rating.
    Ms. Kelly is a credit to all of us who have chosen to be 
public servants. She earned her bachelor's degree summa cum 
laude from Duke University, received her J.D. cum laude from 
Harvard Law School. After law school, she was a law clerk to 
both Judge Donald Porter of the District Court of South Dakota 
and a long-time friend of mine, and I know of Senator 
Grassley's, Judge David Hansen, nominated by President George 
H.W. Bush to serve on the Eighth Circuit.
    She could easily have commanded a big salary with a top law 
firm. Instead, for over 20 years, she has opted for public 
service and long hours as a federal defender, working to uphold 
the rule of law and ensure the rights of all Americans. We are 
fortunate that she seeks to continue her public service to Iowa 
and our Nation by serving as a federal judge.
    Madame Chair, let me conclude with two additional notes 
about Ms. Kelly's nomination.
    First, to sort of repeat what you have already said, if 
confirmed, Ms. Kelly will be only the second female judge in 
the history of the Eighth Circuit, established in 1891. I might 
add, while 56 men have sat on that court, to date, as you 
pointed out, only one woman, Diana Murphy from Minnesota. And 
so now, hopefully, she will be joined by Jane Kelly from Iowa.
    Second, I would note that President Obama has nominated 100 
former prosecutors to the federal bench, including one that I 
recommended and supported by Senator Grassley, which is 
Stephanie Rose for the Southern District of Iowa. Among recent 
Presidents, that is the highest percentage of former 
prosecutors nominated. These are all outstanding attorneys and, 
of course, dedicated public servants. But as Judge Melloy 
recently noted with respect to Ms. Kelly, ``It will be good to 
have someone from the public defender realm on the bench.''
    Ms. Kelly has served for more than 20 years in the federal 
defender's office where she has argued hundreds of cases on 
behalf of indigent clients. She has fought tirelessly to ensure 
the rights of all are protected and has worked to give meaning 
to the phrase above the Supreme Court ``Equal Justice for 
All.'' This is a critically important perspective that she will 
bring to the court, and I might add that our research showed 
that she will be the first career public defender since 1891 to 
serve on the Eighth Circuit Court of Appeals.
    Members of the Committee, Jane Kelly is very highly 
qualified to serve as United States Court of Appeals judge for 
the Eighth Circuit. I urge this Committee to act swiftly to 
approve her.
    Thank you, Madame Chair.
    Senator Klobuchar. Senator Grassley. Thank you, Senator 
Harkin.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Before I speak about Jane Kelly, I want 
to follow up on something that Senator Harkin has said about 
our working relationship and ratify what he said but go beyond 
it.
    I suppose there are 50 different ways of doing this in the 
50 different States, and I know that in some places they have 
been very contentious. And in our particular case, he and I 
have been doing this together for 28 years, and I do not think 
we have had one single disagreement when we had a Republican 
President who nominated somebody and you supported them, and 
now we have a Democrat President for a second time and I have 
supported your nominees. And there has not been one dispute, as 
far as I know, and I think it is something that maybe other 
States ought to take a look at, this relationship. So I thank 
Senator Harkin for that cooperation that he has given, and he 
has already thanked me.
    I am particularly pleased to welcome the nominee, Ms. Jane 
Kelly, and her family and friends and guests. Ms. Kelly is 
nominated to be U.S. Circuit Judge for the Eighth Circuit. She 
presently serves as assistant Federal public defender and as 
supervising attorney of the office in Cedar Rapids. Ms. Kelly 
is a native of Indiana. She received her B.A. degree from Duke 
University in 1987. She spent the next 10 months in New Zealand 
as a Fulbright scholar. She received her J.D. from Harvard in 
1991. Upon graduation, she clerked for Judge Donald J. Porter, 
U.S. District Court, District of South Dakota, and then for 
Judge David R. Hansen of the Eighth Circuit.
    From 1993 to 1994, she was visiting instructor, University 
of Illinois College of Law. Since 1994, Ms. Kelly has served as 
an assistant federal public defender in the federal public 
defender's office for the Northern District of Iowa. She 
handles criminal matters for indigent defendants and has 
handled a wide range of crimes.
    Since 1999, she has been a supervising attorney. Ms. Kelly 
has spent her entire legal career in litigation and has 
appeared in court frequently. She has tried 14 cases to jury 
verdict and has also represented clients before the Eighth 
Circuit Court of Appeals.
    Ms. Kelly is active in the bar and in district court 
matters. She presently serves on the Criminal Justice Act Panel 
Selection Committee, the blue-ribbon panel for criminal cases, 
and the Facilities Security Committee of the district court. 
She has been a member of Dean Mason Ladd Inn of Court as well 
as National Association of Criminal Defense Lawyers.
    In 2004, her peers honored her with the John Adams Award 
from the Iowa Association of Criminal Defense Lawyers and Drake 
University Law School. She was unanimously chosen for this 
award, which recognizes individuals who show a commitment to 
the constitutional rights of criminal defense, and probably 
John Adams represented that best when he defended British 
people that committed something wrong up there in 
Massachusetts.
    [Laughter.]
    Senator Grassley. Well, that is where he lived.
    Senator Klobuchar. It is just a nice Iowa way of describing 
it.
    Senator Grassley. Judge Hansen, for whom Ms. Kelly clerked, 
has submitted a letter of support, and I read that entire 
handwritten note last night, and every sentence of it speaks 
highly of your work.
    In that letter, he states that Ms. Kelly has practiced law 
in an exemplary fashion. He notes, ``She is a forthright woman 
of high integrity and honest character.'' He observed that she 
possesses an exceptionally keen intellect and is a fair and 
compassionate advocate for her clients. Judge Hansen concludes 
that she will be a welcome addition to the court, if confirmed, 
and I have a great deal of confidence in Judge Hansen because, 
when I was first a candidate for Congress, I was in the 
University of Iowa Hospital, and he was a Republican chairman 
in one of my counties, and he went out and campaigned for me. 
And, you know, you do not find county chairmen doing that very 
often in our State. And I won that primary and won that 
election, obviously.
    [Laughter.]
    Senator Grassley. And he gets all the credit for it.
    The ABA Standing Committee on the Federal Judiciary has 
unanimously rates Ms. Kelly as ``Qualified.''
    Again, I welcome Ms. Kelly and look forward to her 
testimony. Thank you.
    Senator Klobuchar. Okay. Very good. And we have also been 
joined by Senator Franken, who I know will have some questions 
when we go forward.
    Senator Franken. I think so.
    Senator Klobuchar. Okay. Very good. Excellent.
    Senator Harkin, we thank you for being here. We do not want 
to swear you in under oath, so you are welcome to join us, but 
we know you have many pressing things to do. So thank you very 
much for coming.
    Okay. Ms. Kelly, could you please come forward and we will 
administer the oath? Do you affirm that the testimony you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Ms. Kelly. I do.
    Senator Klobuchar. Thank you very much, and I know you have 
some people here that you want to introduce, and so please take 
a moment to do that.

 STATEMENT OF JANE KELLY, NOMINEE TO BE CIRCUIT JUDGE FOR THE 
                         EIGHTH CIRCUIT

    Ms. Kelly. Thank you very much. I wish to thank--that was 
the first thing I was supposed to remember.
    [Laughter.]
    Senator Klobuchar. We will give you a break.
    Ms. Kelly. Back to the true first thing I would like to do 
is to thank the Chair and the rest of the Committee for this 
opportunity to appear here today. And I appreciate the 
opportunity to introduce the handful of people who are here 
with me today.
    My partner, Tom Lidd, and my sister, Lisa Kelly Vance, are 
both here with me today. And I also have a handful of friends 
who have made the trip from Iowa to support me as well.
    [The biographical information of Ms. Kelly follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    
    Senator Klobuchar. Very good. Well, we really appreciate 
you being here. We are excited about your nomination, and I 
wanted to ask you about that. I think many of us referenced the 
fact that of the 61 judges that have served on the Eighth 
Circuit, only one has been a woman. As I noted, Judge Murphy is 
someone I know well, and, in fact, she currently serves with 10 
male judges.
    How important do you think it is to include an additional 
woman on that bench in the Eighth Circuit?
    Ms. Kelly. Well, I think it is very important to include 
quality judges on every level of the federal judiciary, and I 
truly believe through the course of my practice that there are 
plenty of very highly qualified women, men, and individuals 
from a variety of backgrounds, whether that be racial or ethnic 
or otherwise. So I think we are at a point where we really do 
have a big pool of folks to choose from.
    Senator Klobuchar. And many commented about the fact that 
we have so many former prosecutors, including myself, that get 
into positions, whether it is in the U.S. Senate or on the 
federal judiciary. Could you talk about the importance of 
including a public defender like yourself on the bench?
    Ms. Kelly. I think that each individual judge would bring 
his or her own perspective and experience, and we all come from 
different legal experiences. I have, perhaps, an unusual one, 
at least as the current state of the judiciary stands. But I 
think it is very helpful to have a variety of views, a variety 
of backgrounds, and a variety of experiences to reach the best 
result possible.
    I know that if I were fortunate enough to be confirmed, I 
would be welcoming the views of other members of panels of the 
Eighth Circuit, and I believe that they would be welcoming mine 
as well.
    Senator Klobuchar. And during your service as a public 
defender, you have had the opportunity to represent a broad 
array of clients from veterans to immigrants, Americans of many 
different backgrounds. Can you talk about how the diversity of 
your clients has impacted the view that you have of the justice 
system?
    Ms. Kelly. It is true, I have represented a wide range of 
people from all walks of life who have been charged with a wide 
variety of criminal offenses, from drug trafficking to high-
level fraud, and those individuals vary just like any other 
litigant that would be presenting their case to a district 
court or to an appellate court. So I would hope that one thing 
that my experience has brought me is a broader view of issues 
and a broader view of the types of experiences that the folks 
who come into a federal courtroom bringing their cases or 
controversies to the court, I would hope I would have a good 
understanding of that.
    Senator Klobuchar. You also served as a law clerk to Judge 
David Hansen on the Eighth Circuit, and as public defender, you 
have had the chance to argue cases in front of the Eighth 
Circuit. How will these experiences impact your perspective and 
decision making as a member of the court?
    Ms. Kelly. I think those experiences have been very 
valuable to me, first of all, as a practicing attorney, but I 
also believe that they would be very valuable if, again, I were 
fortunate enough to be confirmed with the circuit court.
    Working with Judge Hansen was a wonderful experience. 
Senator Grassley has spoken a bit about Judge Hansen. He is a 
very well respected jurist in our community, as well as the 
Eighth Circuit. And so, very early in my career, I was able to 
watch what we might call a master at work, and I valued that 
experience very highly.
    I have also, as the Chair has noted, been able to argue 
cases in front of the Eighth Circuit Court of Appeals on my 
own, on behalf of my own clients. I think that having clerked 
for Judge Hansen, it took a bit of the mystique out of going--
or the scare out of going into court, but it is still a very 
solemn task to represent a client at that level of the federal 
judiciary. And I have had the honor of being able to submit 
written briefs to the Eighth Circuit Court of Appeals and argue 
a number of cases in front of the court of appeals as well. So 
I have that experience from the other side of the bench as 
well.
    Senator Klobuchar. And given those experiences you have had 
and your experiences as a public defender, what do you see as 
some of the greatest challenges facing the federal judiciary?
    Ms. Kelly. Based on my experience in the federal defender's 
office and being in court as much as I am, I think I would say 
one of the more significant challenges to the federal courts 
right now would be simply the sheer volume of cases that are 
moving through the courts. Because I work in the criminal area, 
our cases take priority because of the Speedy Trial Act, the 
speedy trial restrictions in the Constitution. And there are an 
increasing number of criminal cases that are being brought, at 
least that I have noticed over the past couple of decades.
    Unfortunately, I think that is sort of squeezing out some 
of the civil cases from getting docket space, so I would say 
that that would be one of the biggest challenges I have seen 
facing the federal courts.
    Senator Klobuchar. And one last question. I know they have 
televised hearings in Iowa in the State court level, and when 
now-Justice Kagan had her confirmation hearing, she was asked 
about televising Supreme Court proceedings and was in favor of 
that. And I know that there can be different arguments made for 
different levels and concerns at the trial level. But what has 
been your experience seeing what is happening in Iowa? And do 
you think it is worth looking at at the Supreme Court level?
    Ms. Kelly. I personally do not have any experience with 
cameras in the courtroom. We do not have them in the Northern 
District of Iowa, so I have never had that particular 
experience.
    My understanding is that in the Southern District of Iowa, 
they are working through a trial run of using cameras in the 
courtroom in at least some limited circumstances. I would be 
very interested to see how that came out, what the litigants' 
reactions were, the judges' responses, jurors' responses, to 
see whether that might be something that we should look out for 
in more district courts as well.
    Senator Klobuchar. I appreciate you being open to that. 
With that--and so does Senator Grassley--I will turn it over to 
Senator Grassley.
    Senator Grassley. If I live long enough, you will have 
cameras in the courtroom.
    [Laughter.]
    Senator Grassley. But having failed now for 10 years, I do 
not know whether I will live that long.
    I think my staff would tell you what I was going to ask, so 
there should be no surprises here. Given that most of your 
career has been in trial court, would you please explain your 
experience at the appellate level and how you are prepared to 
assume the duties of a circuit judge?
    Ms. Kelly. Yes. As noted in a previous discussion, one of 
my first experiences as a lawyer was working with Judge Hansen 
on the Eighth Circuit Court of Appeals. That was excellent 
experience for me and a wonderful one that taught me a great 
deal about how the appellate process works.
    Early, during the first several years of my practice at the 
federal defender's office, I had a fairly active appellate 
practice. We did a lot of our own appeals, and I was regularly 
writing briefs on behalf of my clients and submitting those to 
the court of appeals and arguing some of those at oral argument 
in either St. Louis or St. Paul on behalf of my clients. I 
enjoyed that part of my practice very much and got a lot out of 
that.
    The only reason I have not been doing that as much lately 
is because of the decision on the part of the federal defender 
who had decided he wanted to specialize the appellate work in 
one attorney in the defender's office. So now the vast majority 
of our appeals go through that one attorney.
    I have done some appellate work in brief writing since that 
time, but none of those have gone to oral argument. But I do 
try to stay active or connected to my cases that go up on 
appeal. I communicate closely with our appellate lawyer. I am 
very interested in the issues that he raises, and we have 
discussions about strategy concerning those appeals.
    Senator Grassley. Thank you.
    You have not worked with civil law--at least I would say 
limited experience. It appears your work has been almost 
exclusively criminal. How will you get up to speed on civil 
matters that might come before you, if confirmed?
    Ms. Kelly. That is an excellent question, Senator. Thank 
you. You are correct, I have worked in federal court in 
criminal law for the bulk of my professional career. As noted, 
I have had a couple of clerkships, and through those clerkships 
I was exposed to varied civil matters in that context. But I 
recognize that was very early in my career and several years 
ago.
    I fully recognize that I have work to do to get up to speed 
on civil matters because any litigant who comes into the Eighth 
Circuit Court of Appeals is entitled to that. They are entitled 
to have a panel of three judges who are fully well versed in 
the law that is being presented to them.
    I will say that through the course of my practice in 
federal court in the criminal side, I have become very 
accustomed to using the Rules of Evidence. I am very accustomed 
to courtroom procedure. And I would hope that some of those 
experiences would overlap with the civil law. And because I 
feel very comfortable in the area of criminal law, I would hope 
that I would have that extra time to spend whatever is 
necessary to get up to speed on the civil cases because I do 
think that that is extremely important and I recognize that I 
would have work to do.
    Senator Grassley. The next question comes because you have 
been a defense attorney. What assurances can you give to the 
Senate and the Committee and future parties that would appear 
before you that you would be impartial and fair to all sides?
    Ms. Kelly. I can assure you, Senator, that I would do 
everything I could to make each litigant who appeared before 
the court not only feel like they were being treated fairly but 
that I would treat them fairly. I have been in the courtroom 
enough to know how important it is that a judge treat both 
parties or all parties participating fairly and impartially. As 
a criminal defense attorney, I am often representing someone 
who, shall I say, is not the most popular person in the room. 
So I, as much as anyone, know how important it is to be fair 
and impartial and make decisions based on things other than 
bias, favor, or prejudice.
    Senator Grassley. I think you just answered my next 
question, but I am going to ask it anyway, and it comes from 
the fact that you do have this reputation for compassion and 
fairness. So my question is: To what degree should compassion 
influence a judge's decision?
    Ms. Kelly. Well, if by that you mean, Senator, that a 
person's case would be viewed differently or a finger would be 
placed on the side weighing in favor of one party over another 
because of sympathy or compassion, that does not have a place 
to play in the courtroom. I would be bound to decide a case 
based on the facts, the relevant law, and any precedent that 
would apply.
    Senator Grassley. My next question, and I am getting almost 
to the end: There is a person, Louis Michael Seidman, professor 
of constitutional law at Georgetown University, who authored an 
article that you probably have not read, but it is entitled, 
``Let's Give Up on the Constitution.'' He argued that many of 
our Nation's problems are a result of ``our insistence on 
obedience to the Constitution with all its archaic, 
idiosyncratic, and downright evil provisions.''
    While you might not be familiar with the article, do you 
have any thoughts on giving up on the Constitution or on the 
necessity of judges to obey the Constitution?
    Ms. Kelly. We should not give up on the Constitution, and 
judges should not give up on obeying the Constitution and 
applying it properly.
    Senator Grassley. Thank you.
    Senator Klobuchar. And we just hope the person that wrote 
the article does not come before you in a judicial nomination 
hearing. [Laughter.]
    With that, we turn it over to Senator Franken.
    Senator Franken. Thank you, Madam Chairwoman.
    I was holding my breath to see how you would answer that. 
[Laughter.]
    I think you did well. Congratulations on your nomination. 
Of course, the Eighth Circuit covers Minnesota, so Senator 
Klobuchar and I are very glad you are here. We congratulate you 
on your nomination.
    Senator Klobuchar and I worked together almost as well as 
Senator Harkin and Senator Grassley claim to.
    Senator Klobuchar. Thank you for mentioning that. 
[Laughter.]
    To clarify the record.
    Senator Franken. And the fact that you are so heartily 
supported by both Senators speaks very well of you and this 
mysterious Judge Hansen. And I know that the Chairwoman 
mentioned the Infinity Project at the University of Minnesota. 
I work closely with them as well, and it is good to see added 
diversity in the form of a second woman in the history of the 
Eighth Circuit.
    I want to talk to you about the role of diversity in terms 
of--because this compassion and empathy and sympathy and all 
these words floating around that have become a little 
controversial. Oliver Wendell Holmes--and I think I have this 
accurate--said that, ``The life of the law has not been logic. 
It has been experience.'' And to me, I would like to get your 
view on the role of experience in terms of why that is, why 
diversity in the courts is important--and I think you spoke to 
that a little bit when Senator Klobuchar was talking to you--
and what the role of experience is for a judge and how it 
relates to diversity.
    Ms. Kelly. I think it is extremely important, and at the 
risk of repeating some of what I had mentioned earlier, I think 
that one of the values at least at the Eighth Circuit Court of 
Appeals is that you are deciding cases as a panel, and so you 
have multiple people giving their input and their viewpoints on 
a particular issue.
    I think we are all defined by our experiences. That is not 
to say that that changes the law or how one would necessarily 
apply the law. But I do think we are shaped by those, and we 
can certainly learn from other individuals a great deal if they 
can help us understand their experience as well. And I think 
that translates into the courtroom as well. While compassion 
and empathy do not decide the case, I do think it allows judges 
to be more open minded and to maybe hear or listen for things 
that they would not necessarily otherwise have heard or 
listened for.
    Senator Franken. I would like to kind of make a distinction 
between compassion and empathy and sympathy. To me, empathy 
means that you can understand what someone else is--their 
feelings and see into their experience, not necessarily 
compassionately or not necessarily sympathetically, but empathy 
means that you can kind of feel what their experience is. And I 
think that is important in terms of having a woman. I think 
that is important in terms of having racial diversity, because 
different people's experiences are different, and there is no 
one who does not have experience. Everyone has experience. So 
it would be nice if there was not everyone with a uniform 
experience on the court.
    You are different in that--I think prosecutors are great, 
former prosecutors are great. For example, the Chairwoman is a 
former prosecutor. So there you have it. [Laughter.]
    But public defenders, that is kind of unusual, isn't it? Do 
we know how many former public defenders have been on the 
Eighth Circuit?
    Ms. Kelly. I personally do not know of any.
    Senator Franken. Okay. So can you tell me something, when 
you have been in trials, that you have noticed from either 
prosecutors or judges that in your experience, when you are on 
the circuit court, that you might--something that you have 
experienced in that role that might make you more open to an 
appeal?
    Ms. Kelly. My role in the courtroom compared to the role of 
the prosecutor or the judge is to represent the rights of the 
individual person, and I--more than anyone in the courtroom 
understands--I think on a very personal, professional level, if 
that makes sense. I have spent a lot of time with this 
individual person--how important the court's result, rulings 
are to their lives, to their families' lives. And so I think 
that my perspective would be in viewing it from the individual 
client's standpoint than perhaps the prosecutor's bigger role, 
albeit important role nonetheless, of enforcing the laws and 
reaching justice in their definition.
    Senator Franken. Okay. But there is nothing like a certain 
kind of thing you have seen judges do or prosecutors do that 
might give you a particular perspective on an appeal?
    Ms. Kelly. As I sit here, I cannot think of particular 
things they do, but certainly when you read transcripts, you 
can find them.
    Senator Franken. Okay, great. I thank you, and, again, 
congratulations on your nomination.
    Ms. Kelly. Thank you, Senator.
    Senator Klobuchar. Well, thank you very much.
    Are there any other questions? Senator Grassley, do you 
want to say any closing comments?
    Senator Grassley. Good luck to you.
    Ms. Kelly. Thank you, Senator.
    Senator Grassley. I do not think that you have got to worry 
about this, but if any Senator writes you questions and wants 
answers to them, our general practice is you do not come up 
until those questions are answered. And that really does not 
cause anybody a problem, but sometimes you do not get the 
answers, so somebody is going to--you know, any one Senator can 
stand in the way for a while.
    Ms. Kelly. Thank you.
    Senator Klobuchar. Well, very good. We are very impressed 
by your credentials, and hopefully you will even get a positive 
tweet coming out from Senator Grassley, since he is the Twitter 
king of the U.S. Senate. [Laughter.]
    And hopefully he will spell your name correctly.
    Senator Grassley. I am going to hit----
    Senator Klobuchar. Oh, no. This is my fault. I asked him if 
he was going to do one.
    Senator Franken. It used to be years ago that ``Twitter 
king'' meant something totally else.
    Senator Klobuchar. Thank you, Senator Franken.
    I suppose you want your hearing to come to an end now, Ms. 
Kelly. [Laughter.]
    Ms. Kelly. I am sort of enjoying it.
    Senator Klobuchar. Well, you may be the first person to 
come before us that said that.
    I do want to thank you. As Senator Franken said, we were 
just so impressed by the strong support you have from both your 
Senators from both sides of the aisle. It really means a lot. 
So thank you so much.
    The record will remain open for a week, and with that, this 
hearing is adjourned.
    Ms. Kelly. Thank you.
    [Whereupon, at 2:38 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  

NOMINATION OF GREGORY ALAN PHILLIPS, OF WYOMING, NOMINEE TO BE CIRCUIT 
  JUDGE FOR THE TENTH CIRCUIT; AND KAROL VIRGINIA MASON, OF GEORGIA, 
              NOMINEE TO BE AN ASSISTANT ATTORNEY GENERAL

                              ----------                              


                        TUESDAY, MARCH 19, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Richard 
Blumenthal, presiding.
    Present: Senators Blumenthal and Lee.

 OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, A U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Welcome, everyone. Today we are 
considering two very qualified nominees to fill important posts 
that ensure that the American people are truly served with 
justice and have access to our justice system. And I am very 
proud to preside as the Chairman. My name is Richard 
Blumenthal, and I am a Senator from Connecticut and a member of 
the Judiciary Committee.
    Gregory Phillips, the nominee for the U.S. Court of Appeals 
for the Tenth Circuit, is currently Attorney General of 
Wyoming. He has a long and distinguished legal career. He also 
has the support of the two Wyoming Senators, whom we welcome 
today, and we appreciate your being here, both Senator Enzi and 
Senator Barrasso. Thank you.
    Karol Mason is the nominee to be Assistant Attorney General 
for Justice Programs, a very, very important position in the 
Department of Justice, and she has a very distinguished career 
as well, having spent 31 years in private and public practice, 
rising to the top of the legal profession in both areas, and 
she is a nominee of the highest quality and I hope will be 
given prompt consideration by the Committee.
    I would like to offer Senators Enzi and Barrasso an 
opportunity to present their nominee, Gregory Phillips, and 
await Senator Lee or Senator Grassley, when they also have the 
opportunity to make an opening statement.
    Thank you.

 PRESENTATION OF GREGORY ALAN PHILLIPS, NOMINEE TO BE CIRCUIT 
 JUDGE FOR THE TENTH CIRCUIT, BY HON. MICHAEL B. ENZI, A U.S. 
               SENATOR FROM THE STATE OF WYOMING

    Senator Enzi. Thank you, Mr. Chair. It is an honor to 
introduce Greg Phillips to the Judiciary Committee, who is the 
nominee for the U.S. Tenth Circuit Court of Appeals. I want to 
thank the Chairman and the Ranking Member as well as their 
staff for acting on Mr. Phillips' nomination in a timely 
manner.
    I believe that Mr. Phillips has all the characteristics 
necessary to serve as a Federal appellate judge. I served with 
Greg in the Wyoming Legislature and can say with confidence 
that he is recognized throughout the Wyoming legal community as 
a talented and respected and thoughtful attorney. And while I 
served with him in the State Senate, I can assure you that he 
was recognized as a talented and respected legislator as well. 
And I should probably also mention that he sat right across the 
aisle from me, so we were able to confer a lot and occasionally 
had differing views.
    But Mr. Phillips is currently Wyoming's Attorney General, 
and this is important to not because the Wyoming Attorney 
General is not an elected position. Mr. Phillips is a Democrat 
who was appointed by a Republican Governor and confirmed 
unanimously by the Wyoming Senate, which is largely Republican. 
Wyoming Governor and former U.S. Attorney Matt Mead comments 
that Greg is ``a first-rate legal thinker, a tireless worker, 
and has an abiding sense of fair play.'' Governor Mead goes on 
to say that, ``if confirmed, all those who appear before Mr. 
Phillips will find a judge fully prepared, engaged, and 
respectful to all.''
    It should be no surprise that the American Bar Association 
unanimously gave Mr. Phillips its highest rating. Greg has 
extensive experience practicing law as a deputy county attorney 
and in private practice with his father and brother.
    Before becoming Wyoming's Attorney General, Mr. Phillips 
served 7 years as Assistant U.S. Attorney for the District of 
Wyoming, handling criminal prosecutions and appeals. Greg has 
argued nearly 20 cases before the Tenth Circuit and submitted a 
variety of briefs, criminal appeals, and responses to the 
court.
    Greg studied economics at the University of Wyoming and 
graduated with honors from the Wyoming College of Law, where he 
was on the Law Review. Immediately following law school, Mr. 
Phillips served as a clerk to U.S. District Judge Alan Johnson 
of Wyoming. Judge Johnson writes that Greg is devoted to the 
rule of law and will honor the remarkable judicial officers who 
preceded him. Specifically, Mr. Phillips' thorough study of the 
U.S. Sentencing Guidelines, experience as a Federal criminal 
prosecutor, and an understanding of State and Federal legal 
issues will serve him well on the Tenth Circuit.
    I respectfully ask the Chairman to include the following 
letters: one from Governor Mead, one from Judge Johnson, and 
then a very important one from the National Association of 
Attorney Generals. And one reason that is important is that he 
has the approval here of 34 of the U.S. Attorney Generals. The 
only reason there are not more is the time was very short 
because you scheduled this hearing so quickly. And we are glad 
for that. We would rather have a quick hearing than a lot of 
signatures. But I do recall that you were one of those U.S. 
Attorney Generals for about 20 years.
    Senator Blumenthal. Twenty years, right.
    Senator Enzi. So you know what credibility those people 
carry.
    I would like to conclude by saying that I can personally 
attest to his qualifications to serve in the position. As I 
mentioned, he served in the legislature with me. He also served 
on the Judiciary Committee, and Wyoming is proud to call Greg 
one of our own, and I know that he will bring a depth of 
knowledge and legal experience to the Federal bench.
    Mr. Phillips also brought his family with him today, whom 
he will introduce when he speaks.
    Members of the Committee, Mr. Phillips is highly qualified 
to serve the U.S. Circuit Court of Appeals for the Tenth 
Circuit. I thank you again for holding this hearing and ask 
that you move swiftly to approve the nomination.
    Senator Blumenthal. Thank you, Senator Enzi.
    Senator Barrasso.

 PRESENTATION OF GREGORY ALAN PHILLIPS, NOMINEE TO BE CIRCUIT 
  JUDGE FOR THE TENTH CIRCUIT, BY HON. JOHN BARRASSO, A U.S. 
               SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Chairman Blumenthal, 
thank you, Senator Lee, for allowing me to speak in support of 
the nomination of Greg Phillips to be a judge on the Tenth 
Circuit Court of Appeals.
    Greg is going to make an outstanding judge in the Tenth 
Circuit. As Senator Enzi has commented, he graduated with 
honors from the University of Wyoming College of Law and has a 
distinguished legal career both in the private sector and in 
the public service. He has prosecuted numerous cases in Federal 
court. He has appeared in and argued more than a dozen cases 
before the Tenth Circuit Court of Appeals.
    He is an experienced attorney who is up to the challenge of 
being an outstanding Federal circuit court judge. Greg's peers 
uniformly praise his intellect, his diligence, and his 
thoroughness. They also praise his fairness.
    His former boss--and Senator Enzi read a little bit of a 
letter from U.S. District Judge Alan Johnson. Judge Johnson 
went on to say, ``Again and again, local defense attorneys have 
expressed their appreciation for the fair-handed, respectful, 
and even-tempered treatment that they have received from Greg 
Phillips.''
    Greg Phillips possesses the character and the traits 
necessary to be a successful and respected member of the Tenth 
Circuit Court of Appeals. I am confident, Mr. Chairman, that 
when the Committee has completed the review of his nomination, 
you will agree that Greg Phillips is an ideal candidate to join 
the court.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you both, Senators.
    Before turning to Senator Lee for his comments, I just want 
to say about Senator Enzi's remark regarding the timeframe and 
the pace of moving forward, I think it reflects the 
qualifications of these nominees. I am sorry that we did not 
get all the Attorneys General that might have commented, but I 
am sure there will be time for them to comment as well. We will 
hold the record open.
    But I am hopeful also that the full Senate will move, as 
well as this Committee, to approve these nominees, and others, 
because we need to fill openings on our courts. As you well 
know, there are states of emergencies that have been declared 
in various circuits, and I very much appreciate your support 
for this nominee, who is extraordinarily qualified. I will not 
hold against him that he is a former Attorney General--or a 
present Attorney General, and I hold them in the highest 
respect.
    Now, Senator Lee, if you would like to comment.

 STATEMENT OF HON. MIKE LEE, A U.S. SENATOR FROM THE STATE OF 
                              UTAH

    Senator Lee. Thank you very much, Mr. Chairman, and thanks 
to both of you for coming today. I am particularly pleased to 
welcome the nominees today, as well as their family members, 
their friends, and their guests.
    Mr. Phillips has been nominated to serve on the U.S. Court 
of Appeals for the Tenth Circuit. That is a court that I am 
familiar with and that is important to me since it includes my 
State. It is also a court where I have argued a couple dozen 
cases, and so I look forward to our discussion on that 
nomination.
    Mr. Phillips, of course, serves as the Attorney General for 
the State of Wyoming, which is our peaceful neighbor and one 
that has never caused Utah any trouble.
    Karol Mason is nominated to be an Assistant Attorney 
General to head the Office of Justice Programs. This is an 
important office within the Department of Justice, managing a 
significant portion of the Department's grant programs. In 
addition, it is an important source of information, training, 
and coordination for the criminal justice system, for law 
enforcement, and for the victims of crime.
    And with your permission, Mr. Chairman, I will put the rest 
of my comments that I have prepared in writing for the record.
    Senator Blumenthal. Without objection, and also without 
objection, the letters that have been submitted by Senators 
Enzi and Barrasso as well will be part of the record. Thank 
you.
    [Letters submitted by Senators Enzi and Barrasso were 
submitted for the record.]
    Senator Blumenthal. Just by way of explanation to folk who 
are attending, our two Senators may not stay because they have 
commitments elsewhere with hearings and Committee meetings and 
so forth. So if they want to excuse themselves, they are free 
at any time to do so, and we very much appreciate your taking 
the time. It has been very helpful and informative to have you 
here, and your support for Mr. Phillips will mean a lot to this 
Committee. Thank you so much.
    I would like to introduce Ms. Mason, who, as I mentioned 
earlier, has a very distinguished career. She spent 31 years in 
both private and public sectors. She has been a partner at 
Alston & Bird, and during her previous service in the Justice 
Department, she focused on helping State and local governments 
achieve results for citizens.
    She was Deputy Associate Attorney General from 2009 to 
2012, and she worked in New Orleans and Memphis to help those 
cities harness the Department of Justice resources to keep 
their citizens safe.
    She also led the Attorney General's Defending Childhood 
Initiative and was a driving force behind the Task Force on 
Children Exposed to Violence. As a partner at Alston & Bird, 
she helps States, cities, counties, school districts, and 
nonprofits fund themselves through the bond market, and she has 
mastered the art of helping governments and nonprofits use 
private funds for public purposes.
    She has received letters of support from both former 
Senator Robert Dole, who writes, by the way, that she is an 
outstanding lawyer; and former Senator Blanche Lincoln, who 
gives her the ``highest recommendation.'' Those letters will be 
placed in the record unless there is an objection.
    [The letters appears as a submission for the record.]
    Senator Blumenthal. I also will place in the record two 
letters of support from Senators of Georgia, unless there is an 
objection.
    [The letters are available as a submission for the record.]
    Senator Blumenthal. She is a very highly experienced and 
qualified nominee, and I am pleased to welcome both her and Mr. 
Phillips to the witness stand, if you would please take your 
places. And now if you would please stand so we can swear you 
in. Do you affirm that the testimony that you are about to give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Phillips. I do.
    Ms. Mason. I do.
    Senator Blumenthal. Each of you now has the opportunity to 
make an opening statement, and I will turn first to General 
Phillips.

STATEMENT OF GREGORY ALAN PHILLIPS, NOMINEE TO BE CIRCUIT JUDGE 
                     FOR THE TENTH CIRCUIT

    Mr. Phillips. Thank you very much, Mr. Chairman----
    Senator Blumenthal. And you need to turn on your 
microphone, if you would.
    Mr. Phillips. Thank you very much, Mr. Chairman and Ranking 
Member Lee. Let me begin by thanking the Committee for setting 
this hearing so speedily. It is wonderful to be here.
    I would next say thank you to the President of the United 
States for his faith in nominating me to this important 
position.
    And, finally, I would like to thank Senator Enzi and 
Senator Barrasso for their very kind comments in support of my 
nomination just now.
    Mr. Chairman, I would at this time like to introduce 
members of my family. Seated immediately behind me is my 
mother, Clare Elaine Phillips, from Wyoming. And next to her at 
the far end is my wife, Donna Phillips. And in between the 
two--so that eyes are watching them, I suppose--are my 16-year-
old son, Ryan, and my 14-year-old daughter, Rachel.
    In the row behind that, my older brother John is here, my 
younger brother David is here, my older sister Clare is here 
together with her husband, Chris Tayback, from California, 
Washington, and Utah. And my little sister, Lisa, is watching 
from Thermopolis, Wyoming.
    Thank you.
    [The biographical information of Mr. Phillips follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Senator Blumenthal. Ms. Mason.

 STATEMENT OF KAROL VIRGINIA MASON, NOMINEE TO BE AN ASSISTANT 
                        ATTORNEY GENERAL

    Ms. Mason. Thank you, Senator Blumenthal, for your kind and 
generous introduction, and thank you, Senator Lee, for holding 
this hearing.
    I would first like to thank the President for the 
confidence he has shown in nominating me; the Attorney General 
for his strong support; and, of course, Chairman Leahy and 
Ranking Member Grassley and all of the members of the Committee 
for holding this hearing and considering my nomination.
    I would like to take a moment to introduce members of my 
family who are here with me today: my twin brother, Dr. Kevin 
Mason, in the second row behind me; my younger brother, Glenn 
Mason. Kevin is a pediatrician who serves a low-income 
population at Atlanta, Georgia, and Glenn is a high school 
social studies teacher in Harlem, New York.
    I also want to acknowledge and thank my many friends who 
are my extended family for joining me today. Thank you for 
traveling here to Washington to be my rock.
    I want to say a special thank you to Cindy Hamilton, 
sitting here in the front, who has been my assistant and friend 
for nearly 20 years. Thank you for understanding how much I 
want to return to public service and for forgiving me for 
leaving you again.
    I am so grateful for the opportunity, if I am confirmed, to 
lead the Office of Justice Programs to play a role in making 
the Nation's criminal justice and juvenile justice systems more 
responsive to the needs of State, local, and tribal governments 
and their citizens.
    My sister and mother are retired public school teachers, 
and my late father was a public health and hospital 
administrator. I grew up teaching adult literacy at night, 
working as a summer counselor for underprivileged youth, and in 
programs for migrant children. We learned early that education, 
health care, and programs to engage youth early are critical to 
creating an environment to break the cycle of crime, and that 
knowledge was reinforced many times over during my time at the 
Department of Justice working with the many dedicated 
professionals at the Office of Justice Programs.
    If I am confirmed, I look forward to continuing that work 
and partnering with law enforcement, victims' advocates, the 
science community, and other national and community-based 
organizations to leverage the taxpayer dollars you have 
entrusted to the Office of Justice Programs to create safer 
communities. I look forward to answering the Committee's 
questions. Thank you.
    [The biographical information of Ms. Mason follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
    
    Senator Blumenthal. Thank you both, and welcome to all of 
your family, loved ones, friends who are here. I think that the 
two nominees would agree that you have had a very pivotal role 
in their being in these positions of great responsibility and 
distinction today, and thank you for being here, and thank you 
to the immediate families for the sacrifices in time and effort 
that you have made because your understanding, I think we all 
know in public life, is very, very important to their being 
able to do what they have done. So welcome and thank you.
    I will begin the questioning by simply asking General 
Phillips, you have had a really wide array of experiences, and 
I wonder if you can cite particular cases that may have 
especially impacted your view of the law and how you would 
conduct yourself as a judge.
    Mr. Phillips. Thank you, Mr. Chairman. I have had--as you 
say, I have been in State courts and Federal courts with civil 
and criminal matters and appeal as well as trial. I do not know 
that any particular case sticks out, but in the almost 8 years 
that I prosecuted Federal crimes on behalf of the District of 
Wyoming, certainly there were some cases there that I will 
never forget and some intervention by victims services people 
that has made a huge difference in people's lives. I would say 
that those stand out the most because they have the most effect 
on human beings.
    Senator Blumenthal. Would you say that there is a need for 
greater advocacy on behalf of victims?
    Mr. Phillips. I cannot speak to that nationally, Mr. 
Chairman, because I do not know. But within my own district, I 
think that we do a good job with that, both State and Federal. 
As Attorney General, we have a Division of Victims' Services, 
and I have seen with my own eyes what they do across the State 
with limited funds, and it is quite a bit.
    Senator Blumenthal. And would you as a member of the Tenth 
Circuit have a particular interest, whether it is civil or 
criminal--I recognize that the cases would be in both, but 
would you have a particular interest in terms of writing or 
taking opinions?
    Mr. Phillips. Mr. Chairman, I think I would be more versed 
in the criminal right off the bat. I have seen a lot of the 
civil-type actions when I was a law clerk and then also some in 
civil practice. And I think that the ones that I would be the 
most prone to want to get involved with the most are in areas 
that I do not know anything about. For example, I have never 
had an antitrust case, and so I would be eager to learn in 
those areas that I have not been exposed to.
    Senator Blumenthal. Thank you.
    If I may ask you, Ms. Mason, I noticed that a number of the 
letters of support--well, you have a diverse group of people 
writing on your behalf, a very impressive list, but I was 
particularly interested in the letters from tribal nations, 
from Native American groups. And I wonder if you could talk a 
little bit about how your new position, assuming that you are 
confirmed, would impact or serve those Native American tribal 
nations.
    Ms. Mason. Thank you, Senator. During the time when I was 
with the Department of Justice as an Deputy Associate Attorney 
General, a Deputy to Tom Perrelli, one of the things that Mr. 
Perrelli charged me with was simplifying the grantmaking 
process for our tribal applicants. And I like to tell the story 
that when I met with the staff in December 2009, I told them 
that in the grants that we were going to release in 2010 we 
were going to manage to put all the grant programs across the 
Department into a single solicitation. And to their credit, 
they looked at me like I was crazy, but then they really rolled 
up their sleeves and did it. And I do not know if you all 
remember that we had a huge snowstorm in the interim, and those 
people worked night and day through the snowstorm from their 
homes to make sure that we kept that on track.
    So if I am fortunate enough to be confirmed to head the 
Office of Justice Programs, one of my priorities will be to 
continue moving that forward to making sure that we provide the 
necessary resources to help our tribal partners improve 
community safety in their tribal lands.
    Senator Blumenthal. Thank you. Would your office have 
jurisdiction over the school resource officer grants that are 
made to local school boards and communities for school resource 
officers?
    Ms. Mason. Senator, the Office of Justice Programs, as is 
the whole Department, is very interested in figuring out how we 
can protect the safety of our children, as you know what 
happened in your own State. And we were all deeply moved by 
what happened. That particular grant is handled by the COPS 
office, but the Department of Justice and the Office of Justice 
Programs does work closely to figure out how we can make sure 
that we leverage the resources that we are given appropriately.
    Senator Blumenthal. Well, I would suggest that that be an 
area of interest for you, because I think that school districts 
around the country, not just in Connecticut but really all 
around the country, have a much greater and heightened sense of 
interest in school safety. And so I would suggest respectfully 
that someone in your position could inform and improve that 
program by taking an active interest in it.
    Ms. Mason. I agree, Senator. Thank you.
    Senator Blumenthal. Thank you.
    Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman, and thanks 
to both of you for joining us.
    Mr. Phillips, why don't we start with you? I have got one 
important question to address at the outset. Will Ryan and 
Rachel call you ``Dad,'' ``Your Honor,'' ``Judge,'' or will 
they keep calling you ``General'' if you are confirmed?
    [Laughter.]
    Mr. Phillips. I would take any of the above over what I get 
now.
    [Laughter.]
    Senator Lee. I will have to consult with Ryan and Rachel 
afterwards and see if they agree with that.
    I want to start with a question about constitutional 
interpretation. Justice Scalia a few years ago, while giving a 
speech--I think it was in 2005--said, ``I think it is up to the 
judge to say what the Constitution provided. Even if what it 
provided is not the best answer, even if you can think it 
should be amended, if that is what it says, then that is what 
it says.''
    Do you agree with Justice Scalia on that point?
    Mr. Phillips. I agree as far as I understand what he was 
saying, which is that the judge ultimately is responsible to 
interpret the Constitution with the tools that are available to 
the judge.
    Senator Lee. What about the judge's own preferences? Should 
those factor into the constitutional analysis?
    Mr. Phillips. I think the Constitution, like any written 
document, should be determined based on the meaning of the 
words that are used.
    Senator Lee. And the words that were used should control 
then, even to the extent that they are at odds with the judge's 
preferences, with the judge's views on what the policy should 
be?
    Mr. Phillips. Absolutely. I think that the judicial branch 
is given a lot of ground already when we go back 210 years ago 
to what Chief Justice Marshall said. It is emphatically the 
duty and the province of the courts to say what the law is. 
That is a lot of real estate. And so my own opinion on this is 
that, to the extent a judge goes further than that and starts 
to weigh whether a constitutional decision or a statutory 
interpretation decision based on what that particular judge 
thinks is good policy, that judge has strayed.
    Senator Lee. My personal record for handling a case before 
the Tenth Circuit is 27 months that a case was held under 
advisement after argument. I will not tell you who was on the 
panel because we do not need to get through that. Do you think 
that is an acceptable amount of time for a single case to be 
held under advisement?
    Mr. Phillips. Senator, I do not, and my own cases, I argued 
19 and briefed others that were not heard, and I did not have 
any that were nearly that long. And it seems like the ones I 
lost----
    Senator Lee. Neither did I, fortunately. That was an 
outlier.
    Mr. Phillips. So I think that to the extent that it is 
taking more than a few months, that that would be the far end 
of what it should be.
    Senator Lee. Okay. On several occasions you joined some of 
your fellow State Attorneys General in a letter supporting 
Richard Cordray to be nominated to head the Consumer Financial 
Protection Bureau. As you know, the President purported to make 
a recess appointment of Mr. Cordray on January 4th of 2012. I 
strongly disagreed with that action and disputed the 
President's authority to make that as a recess appointment 
because, among other things, it was made at a time when the 
Senate did not consider itself in recess.
    In Noel Canning v. NLRB, the D.C. Circuit ruled that 
recesses are limited to intersession recesses and, therefore, 
appointments the President made to the NLRB and to the CFPB 
were invalid from their inception.
    Regardless of the views that you may have expressed with 
regard to Richard Cordray's qualifications, do you agree with 
that ruling by the D.C. Circuit?
    Mr. Phillips. If I am lucky enough to be confirmed as a 
member of the Tenth Circuit Court of Appeals, I would apply 
whatever the binding precedent is from the U.S. Supreme Court 
as well as the Tenth Circuit.
    To the extent that I start to announce a view early, then I 
think I have done the court a disservice because--and the 
litigants who would come before me with a similar or the same 
issue and that they would always question my impartiality. If I 
were to rule the same way that I opined, they would think they 
did not get a fair shake. If I were to go the other direction 
on this issue or any other, then they may think I overcorrected 
so I would not appear to be unfair. So I do not think it is 
appropriate for me to respond.
    Senator Lee. Understood. Understood. I suspect that case 
may be resolved finally by the time or not too far after the 
Senate processes your nomination, but we will leave it at that. 
Thank you.
    Ms. Mason, with the Chair's indulgence, I will continue on 
even though my time is running short. Ms. Mason, as I recall, 
you left the Department of Justice a little over a year ago, I 
think in January 2012, and you went back to private practice, I 
believe. Are you ready to come back for more?
    Ms. Mason. Very much so.
    Senator Lee. And the reasons that caused you to go back 
into private practice are not going to continue to apply 
anymore if you are confirmed to this position, you will feel 
comfortable jumping back into the Department of Justice?
    Ms. Mason. Senator, if I am fortunate enough to be 
confirmed, I will be retiring from private practice, and I will 
actually--I am old enough to retire this time from the law 
firm.
    Senator Lee. I sense a tremendous amount of relief from you 
as you make that statement.
    [Laughter.]
    Ms. Mason. Yes.
    Senator Lee. With no apologies to the managing partners at 
Alston & Bird.
    Ms. Mason. None whatsoever.
    Senator Lee. That is great. That is great. It has got to 
feel good.
    You have been a high-profile supporter of our President and 
were very involved in fundraising activities and other campaign 
activities. Is there anything about your participation--you had 
a very close involvement with the Obama campaign--that you feel 
might in any way jeopardize your objectivity, your ability to 
administer these important programs within the Department of 
Justice which serve all the country, regardless of political 
affiliation?
    Ms. Mason. None whatsoever, sir.
    Senator Lee. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Lee.
    That ends the questioning. I think in this hearing either 
of you is free to make a closing statement if you wish.
    Mr. Phillips. Nothing from me. Thank you, Mr. Chairman.
    Ms. Mason. Nothing from me other than thank you.
    Senator Blumenthal. Wisely said.
    [Laughter.]
    Senator Blumenthal. I just want to assure, again, members 
of the audience that the lack of full attendance at this 
hearing and its apparent speed really reflects the lack of 
controversy, which is a good thing. So I want to again thank 
everyone for being here today, and most especially the two 
nominees for your willingness and determination to seek a 
career of public service, which makes you, I think, role models 
for all of us in the sacrifices that you are willing to make, 
that your families are willing to make, that your friends and 
loved ones have supported you in making.
    So, with that, I am going to close the hearing. The record 
will be kept open for 1 week in case there are any questions 
from other members of the Committee or any additional 
submissions.
    And with that, this Committee is adjourned.
    [Whereupon, at 3:06 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    
    
    
    
    
  
    

                                   


</pre></body></html>
